<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2006 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED NINTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 109-19]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2006

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE HEARING

                                   ON

 BUDGET REQUEST ON DESTRUCTION OF THE U.S. CHEMICAL WEAPONS STOCKPILE-
                       PROGRAM STATUS AND ISSUES

                               __________

                              HEARING HELD
                             APRIL 6, 2005

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                     U.S. GOVERNMENT PRINTING OFFICE
33-788 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
  


    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                    JIM SAXTON, New Jersey, Chairman
ROBIN HAYES, North Carolina          MARTY MEEHAN, Massachusetts
W. TODD AKIN, Missouri               ADAM SMITH, Washington
JOE WILSON, South Carolina           MIKE McINTYRE, North Carolina
JOHN KLINE, Minnesota                ELLEN O. TAUSCHER, California
BILL SHUSTER, Pennsylvania           ROBERT ANDREWS, New Jersey
GEOFF DAVIS, Kentucky                JAMES R. LANGEVIN, Rhode Island
JOEL HEFLEY, Colorado                RICK LARSEN, Washington
MAC THORNBERRY, Texas                JIM COOPER, Tennessee
JIM GIBBONS, Nevada                  JIM MARSHALL, Georgia
JEFF MILLER, Florida                 CYNTHIA McKINNEY, Georgia
FRANK A. LoBIONDO, New Jersey
                Thomas Hawley, Professional Staff Member
                 Bill Natter, Professional Staff Member
                     Curtis Flood, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2005

                                                                   Page

Hearing:

Wednesday, April 6, 2005, Fiscal Year 2006 National Defense 
  Authorization Act--Destruction of the U.S. Chemical Weapons 
  Stockpile......................................................     1

Appendix:

Wednesday, April 6, 2005.........................................    39
                              ----------                              

                        WEDNESDAY, APRIL 6, 2005
FISCAL YEAR 2006 NATIONAL DEFENSE AUTHORIZATION ACT--DESTRUCTION OF THE 
                    U.S. CHEMICAL WEAPONS STOCKPILE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Meehan, Hon. Marty, a Representative from Massachusetts, Ranking 
  Member, Terrorism Unconventional Threats and Capabilities 
  Subcommittee...................................................     3
Saxton, Hon. Jim, a Representative from New Jersey, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1

                               WITNESSES

Bolton, Hon. Claude M., Jr., Assistant Secretary of the Army for 
  Acquisition, Logistics and Technology, U.S. Army...............     6
Conklin, Craig, Chief, Nuclear and Chemical Hazards Branch, 
  Department of Homeland Security, Federal Emergency Management 
  Agency.........................................................     8
Klein, Dr. Dale, Assistant to the Secretary of Defense for 
  Nuclear and Chemical and Biological Defense Programs...........     4
Sinks, Dr. Thomas, Acting Director, National Center for 
  Environmental Health, Agency for Toxic Substances and Disease 
  Registry, Centers for Disease Control and Prevention, 
  Department of Health and Human Services........................    10

                                APPENDIX

Prepared Statements:

    Bolton, Hon. Claude M., Jr...................................    49
    Conklin, Craig...............................................    56
    Klein, Dr. Dale..............................................    43
    Sinks, Dr. Thomas............................................    64

Documents Submitted for the Record:

    Comments from the Department of Defense......................    77
    Report on Review of the U.S. Army Proposal for Off-Site 
      Treatment and Disposal of Caustic VX Hydrolysate from the 
      Newport Chemical Agent Disposal Facility, prepared by 
      Department of Health and Human Services, Centers for 
      Disease Control and Prevention.............................    79

Questions and Answers Submitted for the Record:
    [There were no Questions submitted.]
FISCAL YEAR 2006 NATIONAL DEFENSE AUTHORIZATION ACT--DESTRUCTION OF THE 
                    U.S. CHEMICAL WEAPONS STOCKPILE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                          Washington, DC, Wednesday, April 6, 2005.
    The subcommittee met, pursuant to call, at 1:06 p.m., in 
room 2212, Rayburn House Office Building, Hon. Jim Saxton 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE FROM NEW 
    JERSEY, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Saxton. The subcommittee will come to order.
    Today, the Terrorism, Unconventional Threats and 
Capabilities Subcommittee meets to review the Department of 
Defense program for the destruction of the U.S. stockpile 
lethal chemical warfare agents and munitions for the fiscal 
year 2006 budget request for the program.
    Several Members of Congress who have chemical stockpile 
storage sites in their districts and who are interested in the 
chemical demil program are joining us in this hearing, and I 
would like to welcome them at this point.
    The U.S. chemical weapons stockpile originally consisted of 
approximately 31,000 tons of lethal chemical agents in a wide 
variety of munitions located at Johnston Atoll in the Pacific, 
southwest of Hawaii, and in eight sites in the continental 
United States.
    The fiscal year 1986 Defense Authorization Act requires 
that the destruction of the stockpile be carried out so as to 
ensure maximum protection of the environment, the general 
public and the workers at the storage and demil sites.
    Destruction of the stockpile began at Johnston Atoll in 
1990, and destruction of the entire U.S. stockpile is supposed 
to be completed by April 29, 2007, in accordance with the 
Chemical Weapons Convention (CWC) Treaty to which the United 
States is a party.
    Based on the current cost and schedule estimates, however, 
the United States will not complete destruction of her 
stockpile by the required date. The good news is that as of 
March 23, 2005, over 11,200 tons of lethal chemical agents--
which amounts to almost 36 percent--of the total U.S. stockpile 
has been destroyed.
    Chemical stockpiles at Johnston Atoll and Aberdeen Proving 
Ground, Maryland, have been destroyed. The four baseline 
incinerators at Tooele, Utah; Anniston, Alabama; and Umatilla, 
Oregon; in Pine Bluff, Arkansas, are all operational and are 
destroying their stocks of lethal chemical agents and 
munitions.
    Yesterday the Army advised Congress that within 30 days it 
plans to begin a neutralization of VX nerve gas agent stockpile 
at Newport, Indiana. Although the decision regarding the final 
disposal of the toxic wastewater byproducts of the 
neutralization is still pending completion of a review of the 
disposal process at the Center for Disease Control.
    The bad news is that estimates of the cost and time 
required to destroy the chemical weapon stockpile--which we 
noted in last year's hearing on the chemical demil program--
continued to increase.
    Current worst-case estimates of the total cost of 
destroying the stockpile range from $26.8 billion to $37.3 
billion, and estimates of the dates for completion of 
destruction of the stockpile range from 2021 to 2030.
    Because of the growth of the life cycle cost estimates and 
time required to destroy the chemical weapons stockpiles at 
Pueblo, Colorado, and Bluegrass, Kentucky, using technologies 
developed in the Assembled Chemical Weapons Alternatives 
program, the Under Secretary of Defense for Acquisition, 
Technology and Logistics, Michael Wynne, has essentially put 
the construction of the destruction plants at those sites on 
hold.
    Secretary Wynne has also directed a number of actions to 
attempt to bring the program costs and scheduled increases 
under control, focus the program on meeting the next Chemical 
Weapons Convention milestone for destroying 45 percent of the 
stockpile by December 2007 and assess alternative ways to 
achieve the treaty deadline for 100 percent destruction of 
stockpile while optimizing safety costs in the schedule.
    Many of these alternatives, such as deferring construction 
of the Pueblo and Bluegrass destruction plants, and studying 
the potential relocation of chemical agents and munitions for 
the destruction at existing chemical demil facilities are 
contentious issues for the communities that might be affected.
    Our witnesses today are expected to address these and other 
issues in their testimony, and I expect that the members 
present will also address them in the question and answer 
period that follow.
    To address the issues and the facilities for the fiscal 
year 2006 budget request for the program, our witnesses today 
include Dr. Dale Klein, Assistant Secretary of Defense for 
Nuclear, Chemical and Biological Defense Programs; Mr. Patrick 
Wakefield, Deputy Assistant to the Secretary of Defense for 
Chemical De-mil and Counterproliferation; the Honorable Claude 
M. Bolton, Assistant Secretary of the Army for Acquisition, 
Logistics and Technology; Mr. Michael Parker, Director of the 
U.S. Army Chemical Materials Agency; Mr. Craig Conklin from the 
Emergency Preparedness and Response Directorate of the 
Department of Homeland Security; and Dr. Thomas Sinks, Acting 
Director of the National Center for Environmental Health, 
Agency for Toxic Substances and Disease Registry Center for 
Disease Control.
    Gentlemen, welcome. We look forward to your testimony.
    At this time, I will turn to our ranking member for his 
opening statement.

     STATEMENT OF HON. MARTY MEEHAN, A REPRESENTATIVE FROM 
   MASSACHUSETTS, RANKING MEMBER, TERRORISM, UNCONVENTIONAL 
             THREATS AND CAPABILITIES SUBCOMMITTEE

    Mr. Meehan. Thank you, Mr. Chairman. I join you in 
welcoming today's witnesses.
    I am in a hearing on the Patriot Act with the Attorney 
General and the Judiciary Committee, so I am going back and 
forth. But I do want to welcome today's witnesses.
    Mr. Chairman, as you mentioned, the huge cost estimates and 
potential schedule delays of the chem demil program are mind-
boggling. What began in 1986 as a projected $2 billion, 10-
year-long destruction program has become, based on current 
estimates, a $25 billion to $35 billion burden that will 
stretch beyond 2020.
    Yet despite the programmatical and financial setbacks, we 
should be most concerned with our credibility and standing in 
the international community. We will almost certainly fail to 
meet obligations under the Chemical Weapons Convention Treaty.
    One waiver has already been granted, and predictions for 
the program completion are now well past the 2012 target.
    I understand past delays have been caused by modification 
destruction rates, new environmental regulations, worse-than-
expected stockpile conditions and unanticipated emergency 
preparedness requirements.
    But I also know that some of the delay has been self-
imposed by the department. There have been frequent turnovers 
in the program leadership team, bureaucratic roles and 
responsibilities were often uncoordinated and left unclear, and 
a comprehensive programmatic strategy has been lacking.
    Now, I recognize progress has been made; 35 percent 
stockpile destruction is no small achievement.
    But our nation's interests are best served through the 
promotion of laws and respect for international protocols. The 
failure to comply with Chemical Weapons Convention undermines 
our credibility in the world. I would like to believe that we 
find ourselves at a turning point in this effort.
    I would also like to believe that the Administration is 
poised to apply new-found commitment to the program.
    I would also like to believe that today's testimony will 
move us down a clear and scientifically sound path toward 
treaty compliance.
    This should be our goal, and I hope it will ultimately 
guide our decisions.
    And again, Mr. Chairman, I thank you and the panelists.
    Mr. Saxton. Let me just ask unanimous consent at this point 
that the Members of Congress who are with us who are not part 
of this panel be permitted to sit at the dais and take part in 
the hearing.
    Without objection, so ordered.
    Dr. Klein, I understand that you and Secretary Bolton will 
offer your statements for the Department of Defense and 
Department of the Army, respectively, and that Mr. Wakefield 
and Mr. Parker will be available to answer questions during the 
question period.
    So, sir, if you would like to go ahead and offer your 
testimony at this time.
    Thank you.

  STATEMENT OF DR. DALE KLEIN, ASSISTANT TO THE SECRETARY OF 
    DEFENSE FOR NUCLEAR AND CHEMICAL AND BIOLOGICAL DEFENSE 
                            PROGRAMS

    Dr. Klein. Thank you, Mr. Chairman and distinguished 
subcommittee members. Thank you for the opportunity to offer my 
views concerning the Department of Defense chemical 
demilitarization program.
    As you recall, I testified before you one year ago, and I 
look forward to continuing this dialogue on the matter of the 
destruction of our chemical weapons stockpile.
    I request to submit my written testimony for the record.
    As indicated, I am Dale Klein, the Assistant Secretary of 
Defense for Nuclear, Chemical and Biological Defense Programs. 
As I had previously testified, in my current capacity I am the 
principal adviser to the Secretary and to the Deputy Secretary 
of Defense and the Under Secretary of Defense for Acquisition, 
Technology and Logistics for all matters concerning the 
formulation of policy and plans for nuclear, chemical and 
biological programs.
    And the most important topic that we have today is for the 
chemical weapons demilitarization.
    The Army has made good progress this past year. As soon as 
the facility starts operation in Newport, Indiana, six out of 
our eight chemical demilitarization sites will be operational.
    I would like to make three points today during my briefing: 
safety and security, funding the President's budget for 
chemical demilitarization, and the department's recent 
acquisition decision for the chemical demilitarization program.
    First, I want to emphasize my commitment to safety and 
security as a paramount consideration of chemical 
demilitarization program. I have championed this cause 
vigorously during the past four years while focusing on 
destroying our aging stocks of chemical weapons.
    As the chemical demilitarization program moves forward, the 
department will balance resources to maximize the chemical 
weapons destroyed while protecting our workers, the surrounding 
public and the environment.
    Second, I want to emphasize and respectfully request that 
you fully fund the fiscal year 2006 President's budget for the 
chemical demilitarization program. This budget requests funds 
existing and future chemical weapons destruction efforts. As of 
December 31, 2004, the U.S. has destroyed more chemical agent 
in accordance with Chemical Weapons Convention than all other 
state parties combined.
    By May 2005, the department expects to be operating six 
chemical weapons destruction sites, and the U.S. remains on 
track to meet the Chemical Weapons Convention extended 45 
percent destruction deadline of December 31, 2007.
    The U.S. continues to be a leader in the international 
community regarding the destruction of chemical weapons, and 
now more than ever, each and every dollar that we spend goes 
directly toward destroying our aging chemical weapons stockpile 
and maintaining our commitments as outlined by the Chemical 
Weapons Convention.
    Third, I will discuss the department's recent acquisition 
decision.
    The department is currently implementing the Acquisition 
Decision Memorandum, or the ADM, that was signed on December 
21, 2004. The ADM directs the department to divide the program 
into three major defense acquisition programs and prioritize 
the funding to support the operations at existing chemical 
demilitarization facilities in order to ensure compliance with 
our extended deadline of December 31, 2007, for the 45 percent 
CWC convention.
    The ADM also directs the development of alternatives that 
are safe, secure and cost effective to complete the stockpile 
destruction within the existing resources by the Chemical 
Weapons Convention, extended 100 percent destruction deadline 
of April 2012.
    If we do not manage physical resources, the projected life 
cycle cost to destroy the U.S. chemical weapons stockpile could 
grow from $26.8 billion in 2004 to as much as $40 billion in 
2012. Therefore, the analysis of potential alternatives helps 
manage and fulfill the department's obligations of responsible 
resource management to the U.S. taxpayer.
    The department expects to complete this evaluation by April 
2005, and I ask for your support as we continue the safe, 
secure, cost effective and timely destruction of our chemical 
weapons.
    In closing, the department is fully committed to destroying 
our nation's chemical weapons stockpile safely, securely and 
expeditiously.
    To be fully effective, we ask for your assistance in fully 
funding our budget requests and supporting us as we leverage 
all means necessary to meet our commitments to the citizens and 
to the world.
    While we have our challenges, Mr. Claude Bolton, 
representing the Army as executive agent for the chemical 
demilitarization program, has made significant progress over 
this last year and should be complimented for his activities.
    We are making the world a safer and more secure place by 
having destroyed over 11,000 tons of chemical agents as of 
March 23, 2005.
    Mr. Chairman, I welcome any comments or questions you and 
other members of the subcommittee have regarding the chemical 
demilitarization program. I look forward to working with you as 
we advance our common goal of safe, secure, cost effective, 
timely and complete destruction of our nation's chemical 
weapons stockpile.
    Thank you.
    [The prepared statement of Dr. Klein can be found in the 
Appendix on page 43.]
    Mr. Saxton. Thank you, Dr. Klein, very much for your 
testimony.
    Secretary Bolton.

STATEMENT OF HON. CLAUDE M. BOLTON, JR., ASSISTANT SECRETARY OF 
 THE ARMY FOR ACQUISITION, LOGISTICS AND TECHNOLOGY, U.S. ARMY

    Secretary Bolton. Chairman Saxton, Representative Meehan, 
distinguished members of this committee, it is again my 
privilege to appear before you as the Assistant Secretary of 
the Army for Acquisition, Logistics and Technology and as the 
Army Acquisition Executive to discuss the status of the 
chemical demilitarization program.
    I, too, respectfully request that my written statement be 
entered into the record in its entirety.
    Mr. Saxton. Without objection. Thank you, sir.
    Secretary Bolton. I am joined today by Mr. Mike Parker, 
Director of the Chemical Materials Agency. And on behalf of Mr. 
Parker and the men and women of that agency who perform the 
safe and expeditious destruction of aging chemical agents and 
munitions for the Army, I want to thank the committee, the 
committee members and staff for their unwavering support of 
this important and difficult mission.
    Your candid appraisals of this endeavor guide our paths and 
help us achieve the tasks you have charged us to perform. Your 
dedication to this mission is recognized and much appreciated.
    As the Army acquisition executive, I am responsible to the 
Secretary of the Army and to the Defense Acquisition Executive 
for all aspects of the chemical demilitarization program, 
except for disposal efforts at Pueblo, Colorado and Bluegrass, 
Kentucky.
    The Army's paramount objective is to destroy the stockpiles 
of chemical agent and munitions at disposal sites in Alabama, 
Arkansas, Indiana, Maryland, Oregon and Utah, as well as the 
nation's non-stockpile chemical warfare materiel, while 
ensuring the safety and protection of the workforce, the 
general public and the environment.
    I would like to outline my main three points today.
    First I will illustrate the excellent progress the Army has 
made over the past year; second, I will offer evidence that 
indicates we are conducting the mission safely; and third, I 
will describe some of the issues that affect the program's cost 
and schedule.
    I would like to point out that this has been and is a 
remarkable time for the Army chemical demilitarization program. 
I am proud to report that over 36 percent of the total 
stockpile has been destroyed, using two different chronologies, 
mainly chemical neutralization and incineration.
    At our neutralization facility at Aberdeen, Maryland, we 
have completely destroyed all agent drained from ton 
containers, making it the first facility within the continental 
United States to completely eliminate the risk of agent 
exposure to nearby communities.
    Our neutralization facility at Newport, Indiana, is 
expected to begin agent destruction operations next month.
    Our incineration facilities also are making tremendous 
progress. I am pleased to report that all of our incineration 
facilities are operating. We have destroyed more than half of 
the Tooele, Utah, stockpile, which originally constituted over 
40 percent of the total U.S. stockpile. Over 1 million 
munitions have been destroyed at Tooele, including all the 
sarin-filled weapons and nearly all of the VX munitions, which 
together represent 99 percent reduction in the risks to their 
community there.
    The employees at our facility at Anniston, Alabama, have 
destroyed all the sarin-filled rockets at that site, which 
represents a 33 percent reduction in risk to the surrounding 
communities.
    Employees at the facility at Umatilla, Oregon, also are 
doing their part to reduce the risk posed by continued storage. 
Since the beginning of operations, since September 2004, they 
have safely eliminated over 8,000 sarin-filled rockets. And 
last week, workers at our facility at Pine Bluff, Arkansas, 
began destroying munitions and reducing the risk to that 
community.
    The international treaty requires the complete destruction 
of the nation's stockpile of chemical agents and munitions. But 
it also requires destruction of non-stockpiled chemical warfare 
material. And I am pleased to report that over 80 percent of 
the former production facilities have already been destroyed. 
And we are on schedule to meet the April 2007 non-stockpile 
treaty deadline.
    Focusing on the second point, I would like to emphasize 
that we are accomplishing all of these activities safely. The 
Army and its contractors have achieved exceptional safety 
records. And by focusing our efforts on protecting the worker, 
who is turning a valve during a plant operation, we protect the 
general public and the environment as well.
    Our facilities have achieved an average annual reportable 
injury rate that, according to the Bureau of Labor Statistics, 
is somewhere between those of a credit union and a shoe store.
    Our sites have logged millions and millions of hours 
without a lost-time incident. Our facilities in Alabama, 
Arkansas and Oregon have recently received prestigious safety 
awards from state government offices in recognition of their 
extraordinary achievements.
    In addition, the Chemical Stockpile Emergency Preparedness 
Program, or CSEPP, the Army works closely with the Department 
of Homeland Security's Federal Emergency Management Agency and 
with state and local governments to review emergency 
preparedness requirements as individual weapon storage sites 
reduce risk to the communities through the destruction of their 
stockpiles. All 10 CSEPP states have achieved full program 
benchmark compliance.
    My third and final point is that a number of different 
issues have the ability to impact the program's cost and 
schedule. No one envisioned the peaceful destruction of these 
weapons when they were first manufactured over 50 years ago. 
However, achieving a mission of this scope and magnitude, and 
one that holds the interest of so many important stakeholders, 
poses unique challenges. These challenges can be grouped 
generally into three categories: technical, external and 
internal.
    As an example of the technical, we recently identified the 
presence of mercury in portions of the Tooele stockpile. The 
Tooele plant must be modified to remain compliant with 
environmental regulations and prevent the release of mercury in 
the environment.
    External has been touched on, and that involves movement of 
hydrolysate, which is a caustic waste material, from our 
neutralization plant in Newport to another facility. The 
ongoing studies with the Centers for Disease Control (CDC) and 
the Environmental Protection Agency (EPA) must be concluded and 
then determination made as to whether or not that process is 
safe for the environment.
    The internal was mentioned earlier by the ranking member, 
and that deals with our own processes in the Army, within the 
agency and within the building, and those are all being 
addressed.
    I think to date, Mr. Chairman, we could see that the 
program has achieved its major objective and that is to reduce 
the stockpile safely to the surrounding communities, the 
workers who are involved and to the environment.
    With your continued support and those of the staff, I am 
convinced that we will be able to reduce the threat, eliminate 
the chemical weapons and munitions and eliminate this threat 
for our communities and for the country.
    That concludes my remarks. I look forward to your 
questions.
    [The prepared statement of Secretary Bolton can be found in 
the Appendix on page 49.]
    Mr. Saxton. Secretary, thank you. And thank you for 
concentrating on the safety aspects of this.
    It is interesting to note that we are one-third of the way 
through the program, and according to the information that you 
have just given us, we have been, from a safety of point of 
view, very, very successful.
    Secretary Bolton. Yes, sir.
    Mr. Saxton. Thank you for that information.
    Mr. Conklin.

STATEMENT OF CRAIG CONKLIN, CHIEF, NUCLEAR AND CHEMICAL HAZARDS 
  BRANCH, DEPARTMENT OF HOMELAND SECURITY, FEDERAL EMERGENCY 
                       MANAGEMENT AGENCY

    Mr. Conklin. Yes, sir.
    Mr. Chairman and distinguished members of the subcommittee, 
I am Craig Conklin, Chief of the Nuclear and Chemical Hazards 
Branch located within the Department of Homeland Security's 
Federal Emergency Management Agency (FEMA).
    I am pleased to provide this update on the progress of the 
Chemical Stockpile Emergency Preparedness Program since my last 
testimony before this subcommittee on April 1, 2004.
    I also respectfully request that my written statement be 
entered into the record.
    The CSEPP mission is an extension of the Department of 
Homeland Security mission to lead America to prepare for, 
prevent, respond to and recover from disasters. CSEPP's mission 
is to enhance existing local installation of tribal, state and 
Federal capabilities to protect the health and safety of the 
public, workforce and the environment from the effects of a 
chemical accident or incident involving the U.S. Army chemical 
stockpile.
    The CSEPP mission is successfully accomplished through 
effective partnerships with the Army, other Federal departments 
and agencies in 52 state, tribal and local government 
organizations.
    The current state of the program is a positive one. Due to 
the effect of working partnerships, previously mentioned, all 
CSEPP communities are capable of responding to incidents 
involving chemical warfare agents. In fact, CSEPP communities 
are better prepared to respond to natural and man-made hazards 
as a result of their involvement in this program.
    In addition, CSEPP is actively working to share its best 
practices and experiences so they may be applied to other 
homeland security needs.
    We have undertaken several initiatives to ensure continued 
effective program implementation.
    With the chemical stockpile at Aberdeen Proving Ground now 
completely destroyed, FEMA is working with Maryland officials 
to close out that community from the program. The closeout 
lessons learned from Aberdeen are being captured by a national-
level working group and will be used to develop policies and 
procedures for closing out the other CSEPP sites when they have 
accomplished their missions.
    We have also initiated negotiations with our state and 
local partners to translate the benefits gained from risk 
reduction and to reduce program cost. We are committed to a 
collaborative process that continues to produce community-
specific preparedness programs that are commensurate with 
actual community risk.
    FEMA will continue to ensure that baseline emergency 
preparedness capabilities are maintained at all sites until the 
chemical stockpiles are completely destroyed.
    FEMA and the Army have also published a joint strategic 
plan for the CSEPP that codifies our system of national 
benchmarks as official program goals and defines objectives for 
meeting them.
    While the CSEPP has made significant strides forward, it 
still faces several challenges.
    As the disposal schedule is extended, program costs 
increase. These costs increase can be significant because many 
major infrastructure systems, such as answer-operable 
communications and outdoor siren systems, have a finite 
lifespan and may require replacement during the program's life 
cycle. These system replacements were not originally budgeted 
because stockpile destruction was planned before system 
obsolescence.
    Although off-post preparedness comprises only six percent 
of the total overall chemical demilitarization budget, FEMA and 
Army personnel are working closely with our state, tribal and 
county partners to sustain community preparedness in the most 
efficient manner possible.
    FEMA is also working to reduce its cost. Personnel levels 
at FEMA headquarters and in several FEMA regions have been 
reduced through attrition. Staffing needs will be continually 
evaluated to ensure that FEMA staffing is appropriate to 
fulfill our preparedness mission.
    Two appropriations issues also create challenges for 
program management.
    The loss of two-year availability for operations and 
maintenance funding and the imposition of fenced appropriations 
for on-post and off-post preparedness funding reduces the 
amount of time that our state and local partners have to 
implement major projects and eliminates the flexibility of the 
Army and FEMA to employ Federal funds where they provide the 
greatest public protection.
    In closing, although the CSEPP has significantly enhanced 
the ability of the state, tribal and local officials to respond 
to a chemical incident at the Army's installations, FEMA will 
not rest on this accomplishment. I would like to emphatically 
state that until all chemical weapons stockpiles are destroyed, 
the Department of Homeland Security, working through FEMA, will 
continue to work with our state, tribal and county partners to 
ensure that they are prepared to respond to an event.
    I will gladly respond to any questions that you may have.
    Thank you.
    [The prepared statement of Mr. Conklin can be found in the 
Appendix on page 56.]
    Mr. Saxton. Thank you, sir.
    Dr. Sinks.

STATEMENT OF DR. THOMAS SINKS, ACTING DIRECTOR, NATIONAL CENTER 
   FOR ENVIRONMENTAL HEALTH, AGENCY FOR TOXIC SUBSTANCES AND 
 DISEASE REGISTRY, CENTERS FOR DISEASE CONTROL AND PREVENTION, 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. Sinks. Thank you, Mr. Chairman and members of the 
subcommittee.
    My name is Tom Sinks, and I am the Acting Director at the 
Centers for Disease Control and Prevention's National Center 
for Environmental Health and the Agency for Toxic Substances 
and Disease Registry, both within the Department of Health and 
Human Services.
    I would like to thank the subcommittee for inviting me here 
today. We share with you and the Department of Defense (DOD) 
the obligation and desire to safely destroy and dispose of our 
nation's chemical weapons stockpile.
    My testimony will focus on CDC's involvement with the 
Newport chemical agent disposal facility.
    CDC and other oversight organizations have worked with the 
Army and achieved several notable successes in safe destruction 
of chemical weapons at Johnston Atoll; Tooele, Utah; Anniston, 
Alabama; and Aberdeen, Maryland. We look forward to continuing 
this notable record for safety and accomplishment.
    CDC's oversight function primarily involves reviewing the 
Army's plans at each facility and focusing on provisions and 
procedures to protect the workforce and surrounding 
communities. CDC conducts periodic on-site reviews and consults 
with the Department of Defense and contractors on an ongoing 
basis for the purpose of ensuring safety.
    Today our challenges involve different non-incineration 
technologies, such as the technology at Newport, Indiana, and 
those proposed for Pueblo, Colorado, and Bluegrass, Kentucky.
    CDC has reviewed the Newport facility operations and plans. 
CDC believes the facility is prepared to begin processing a 
portion of the VX stockpile.
    CDC will continue to review the status of the Newport 
facility on an ongoing basis.
    Congress has requested that CDC conduct an independent 
review and report on the DuPont and DOD plan for the handling, 
transport and disposal of caustic VX hydrolysate waste.
    CDC used internal and external experts to review the 
DuPont-DOD report, including those from the Agency for Toxic 
Substances and Disease Registry, the Department of 
Transportation, Carmagen Engineering and EPA.
    CDC sought extensive documentation from both the Army and 
DuPont. CDC reviewed several thousand pages of studies and 
background information.
    To ensure technical accuracy of CDC's findings, the entire 
report was peer reviewed by subject matter experts outside the 
government and the Department of Defense. The report was sent 
yesterday to the subcommittee and Members of Congress who 
requested it.
    Our summary findings were, first, caustic VX hydrolysate is 
highly corrosive, requiring appropriate personal protective 
equipment during handling and transportation. The hydrolysate 
is consistent with other caustic products and can be dealt with 
by proper training and ensuring that responders understand the 
proper equipment for an emergency response.
    Second, CDC believes that the Newport facility can begin 
effectively destroying approximately half of the VX stockpile. 
However, insufficient information has been provided to 
determine the efficacy of neutralization of the remaining VX 
stabilized with a different chemical additive.
    In addition, studies provided CDC to date support 
destroying smaller portions of VX per batch than was originally 
designed--8 percent versus 32 percent--which will increase both 
the processing time and the volume of hydrolysate waste 
generated. We understand that the Army is conducting additional 
testing to see if it can resolve these two issues.
    Third, risks associated with transporting the hydrolysate 
from Newport to the DuPont facility in New Jersey are limited 
to its corrosive properties. The hydrolysate waste can be 
transported utilizing precautions and equipment similar to 
other caustic materials currently being conveyed on our 
highways.
    Fourth, insufficient data were provided to the EPA 
reviewers to ensure that the disposal of hydrolysate waste into 
the Delaware River is acceptable. Because EPA found the 
assessments were not acceptable, CDC cannot recommend 
proceeding with the disposal plan until EPA's concerns are 
adequately addressed.
    In October of 2004, CDC received a second congressional 
request to review a revised Army-DuPont plan for further 
phosphonate reduction at DuPont. CDC received the Army-DuPont 
report on phosphonate treatability last month. CDC recently 
began to review this information and hopes to have a review 
complete as soon as possible.
    In summary, CDC will diligently continue the evaluation of 
existing chemical demilitarization facilities for safety, 
monitoring and medical programs, and work in partnership with 
the Army on this important program of the U.S. Government.
    CDC has had a long and successful working relationship with 
the Army's Chemical Materials Agency. Together with the 
Department of Defense we hope to report continued successes of 
this program to the subcommittee.
    Again, I appreciate the subcommittee's interest and 
attention to this important project and the opportunity to 
protect the health of the people of the United States.
    Mr. Chairman and members of the subcommittee, this 
concludes my testimony. I have provided more detailed testimony 
in writing.
    I would be happy to answer any questions.
    [The prepared statement of Dr. Sinks can be found in the 
Appendix on page 64.]
    Mr. Saxton. Dr. Sinks, thank you very much. And thank you 
for your comments on the CDC report.
    I would like to say at this point that I have a copy of the 
report, which is entitled, ``A Review of the U.S. Army Proposal 
for Off-Site Treatment and Disposal of Caustic VX Hydrolysate 
From the Newport Chemical Agent Disposal Factory.''
    I would like to ask unanimous consent at this point that 
the report be made part of the record of this hearing, as well 
as the comments of the Department of Defense that were sent to 
CDC.
    So that will be made part of the record, without objection.
    Let me also say at this point that the ranking member--who 
is also a member of the Judiciary Committee, which is in 
session, considering reauthorization of the Patriot Act--and so 
I am going to yield first to the ranking member, Mr. Meehan, 
and then I will ask my questions.
    [The information referred to can be found in the Appendix 
on page 77, 79.]
    Mr. Meehan. Thank you, Mr. Chairman.
    Dr. Klein and Mr. Wakefield, I understand that the current 
chemical weapons demilitarization program will not complete 
stockpile destruction until 2020 or 2021, which is at least 
eight to nine years beyond the extended deadline provided by 
the Chemical Weapons Convention.
    If not addressed, doesn't this undermine our ability to 
press other countries to adhere to the convention's deadlines. 
And are we prepared to give up that leverage?
    It seems to me that the United States' failure to eliminate 
our chemical weapons stockpile in a timely fashion could give 
Russia, for example, an excuse to provide less than good-faith 
cooperation under the Cooperative Threat Reduction Program.
    And what implications does our delay have for the 
Cooperative Threat Reduction Program?
    I am concerned that a slow rate of demilitarization on the 
Russian side, where stockpiles are less secure, is a very 
serious threat to national security.
    So the question is: How do you suggest that the United 
States--you know, a country committed to ridding other 
countries of weapons of mass destruction and stockpiles--
explain to the world our failure to eliminate the chemical 
weapons stockpiles as required by the international treaty?
    Dr. Klein. Mr. Congressman, if you look, for example, where 
we are to date, we have our six--hopefully soon--six out of the 
eight sites operational. So we are making good progress, and we 
do believe that we will have 45 percent of our chemical agents 
destroyed by December 2007.
    On the current schedule that we are operating on, we 
believe that we will have at least 90 percent of our chemical 
agents destroyed by 2012, if not more.
    The last two sites that are, as we say, the long pole in 
the tent are the sites at Pueblo and Bluegrass. Pueblo is about 
eight percent of our stockpile; Bluegrass is about two percent 
of the stockpile.
    So the bottom line is, we do not know those end dates, 
because we currently have studies that will be ongoing that 
will have more information hopefully by the end of this month, 
and we will make decisions this year on a better definitive 
schedule for those last two remaining sites.
    I would say that we are going to make every effort to make 
2012. We have not given up on that. It is going to be 
difficult. Everyday that we operate the plant safely and 
securely, we have reduced the risk to not only our citizens but 
to the world. And we do believe we are making progress.
    We would like to do it quicker. We would like to do it with 
less cost. But we also want to make sure we do it safely and 
also protect the environment. So we want to take prudent 
action.
    Clearly, we are making better progress than Russia. Russia 
has about two percent of their agents destroyed to date. The 
Cooperative Threat Reduction Program also is under my office, 
and we are working with the Russians to make sure they safely 
and securely destroy theirs as well.
    They, in all likelihood, will not even come close to 2012.
    Mr. Meehan. Dr. Klein, we repeatedly state that weapons of 
mass destruction, getting them out of the terrorist hands, is a 
top priority. The Army maintains that public safety is its top 
consideration.
    Numerous studies have shown that the continued storage of 
chemical weapons is the highest-risk option.
    I am trying to determine how we can justify the delay of 
construction that you mentioned at Bluegrass and Pueblo. What 
is really preventing the destruction of these stockpiles in a 
timely manner?
    In testimony before the Senate Budget Committee in March, 
Deputy Secretary of Defense Paul Wolfowitz said that we are re-
examining what is going on in Colorado and Kentucky, and he 
said, ``My gravest concern is that projects be cost 
effective.''
    So are you telling us that there has been a shift in 
priority from public safety/national security to cost? And what 
did Secretary Wolfowitz mean by that?
    Dr. Klein. Well, I would certainly not want to interpret 
what the Deputy Secretary stated.
    What I will say is that the department is committed to the 
safe and timely destruction of these chemical weapons. We would 
like to do this as expeditiously as we can.
    In terms of the plants at Pueblo and Bluegrass, these are 
the last two sites. We did not decide the technique that those 
two sites would utilize until 2002.
    We certified to Congress in 2003 what the cost of those 
facilities would be. In Pueblo it was $1.5 billion, in 2002 
dollars.
    When we were getting some of the designs back, the cost 
increased to $2.6 billion, and that was a significant increase 
in cost.
    So we are now looking at alternatives to that, whether we 
could stage the destruction in a different way, where we would 
remove energetics and then look at destroying the mustard gas, 
in the case of Pueblo, so that we can do it safely.
    So we are looking at a lot of options in order to do this 
in a more safe and timely manner.
    So I would say that the department has not shifted its 
focus at all. But we are responsible to the taxpayers, and we 
want to do this in the best way that we can to balance cost, 
performance and schedule.
    I would say that the materials are safely stored in all of 
our eight sites. But we would like to get rid of these as soon 
as we can.
    Mr. Meehan. The reason I ask--and maybe Secretary Bolton 
can comment on it--the Administration's fiscal 2005 budget 
slashed funding for the plant facilities in Pueblo and 
Bluegrass. In the budget projections for fiscal year 2006 to 
fiscal year 2011, the estimated request remains extremely low, 
about $31 million per year to be shared by both sites.
    The chemical weapons destruction technology plan for Pueblo 
and Bluegrass is a water neutralization technology, an 
alternative to incineration developed through years of 
negotiation between the Army, local officials and citizens.
    Why has this pilot destruction process been singled out for 
budget cuts? And what does this say about the Army's commitment 
to developing alternative destruction methods that are less 
harmful to the environment and more acceptable to the local 
communities?
    Dr. Klein. Let me start to answer that question.
    These two plants in Pueblo and Bluegrass are using a 
neutralization technique similar to that that was used in 
Aberdeen and will be used in Newport.
    We learned a lot in the operation of the plants at 
Aberdeen. It took a year longer than we had expected. There 
were a lot of operational issues that caused it to take a lot 
longer than we had initially expected.
    And I think the fact that we understand the science of how 
to do this is sometimes easier than the operational side of 
doing it. And so we had some material incompatibilities that 
took longer than we expected.
    The numbers that you refer to in the delay of Pueblo and 
Bluegrass are basically our program objective memorandum (POM) 
budget within our existing physical resources. That does not 
mean that is the schedule that we will stay on. That is the 
five-year budget projection.
    I believe that when we operate Newport, we will learn from 
that and be able to design the plant at Bluegrass better. We 
learned a lot from Aberdeen that will help us on the Pueblo 
plant.
    So there is no less focus on getting rid of these in a safe 
and timely manner.
    What we did do when Mike Wynne made his decision in 
December, he did make the decision to concentrate on those 
plants that are operating so that we could more likely increase 
and meet our 45 percent deadline that we have for December of 
2007.
    So it does not mean that we are diminishing the importance 
of Pueblo nor that in Bluegrass. It just means that we wanted 
to concentrate and keep the plants that are running, running, 
and to meet that 45 percent deadline.
    Secretary Bolton. Congressman Meehan, as I stated in my 
opening comments, these two sites are not directly under my 
management purview. But I feel I have a moral obligation to Dr. 
Klein and to Mr. Wynne to offer whatever expertise they think 
they need--they work on that.
    So obviously, whether it is Aberdeen that is now closing 
down, or Newport that is starting up, whatever we learn from 
those sites we pass on to them.
    But it is not under my purview to look at the cost and 
schedule of those two sites.
    Mr. Meehan. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Mr. Saxton. Gentlemen, it seems like you bring us good news 
and bad news. The good news part of the story is that this has 
been a remarkable effort in terms of not harming people or the 
environment. The good news, on the safety side, is that we have 
done a pretty good job here, it seems.
    On the other hand, there are two other parts of this issue 
that are obviously troublesome. One is the length of the period 
of time that this job is taking.
    When this program was conceived in the 1980's, I believe it 
was hoped that we would be able to move through the entire 
destruction of these agents in 8 years and at the cost 
projected at the time of $2.1 billion. This is not new 
information to you, because you told me this.
    Of course, we did not make the 1994 deadline, and here we 
are in 2005, and this year's projection is $26.8 billion. And 
Dr. Klein using his ruler, has built this little chart that I 
have in front of me that says that by something around 2014 or 
2015, the cost could be as high as $40.2 billion.
    So in terms of--and would not be completed until 2030, Gene 
tells me.
    So the good news is that we have done this in a safe way; 
the bad news is that is taken many times longer than we 
expected it would at the beginning and at a cost many multiples 
in excess of what it was originally projected to take.
    So here is my question: Being as brutally frank as you can, 
tell us what happened to the cost projections and the time 
projections and what the Department of Defense did in the 
past--which it may do differently in the future--and what role 
also Congress may have had to play in slowing this program down 
and perhaps making it more expensive than it should be.
    Dr. Klein. I will start, Mr. Chairman, and then pass it to 
the Honorable Claude Bolton to add his comments as well.
    I think a lot of factors happened in the cost and schedule, 
and that has been one of the most frustrating parts. As you 
indicated, we have good news and bad news. The good news is we 
are doing it safely. We have not injured people and it is doing 
it in an environmentally sound manner.
    I think a lot of things happened. As Mr. Bolton indicated, 
we do get some technical surprises along the way. For example, 
when we sampled some of the ton containers in Tooele, we found 
that they had mercury in them. And the environmental laws and 
regulations that we have on the books today for the release of 
mercury into the environment is much different than that that 
was projected in 1985.
    So there have been environmental changes. There have been 
technological surprises.
    One of the frustrating parts, I believe, is that we have 
not gotten the through-put of the plants as we had expected. 
And, again, we will have surprises where there is material 
incompatibility, changing environmental regulations--a lot of 
things have resulted in not meeting the schedules.
    So we probably have a variety of factors. There is no 
single one cause to do that.
    But it has been optimistic schedules that have not come to 
pass. It has been the plants that have not been meeting their 
target objectives.
    So what we have done, when I was confirmed in my position 
in late 2001, November of 2001 and coming into 2002, was when 
we were wrestling with a $9 billion increase. I was new to the 
Pentagon, and it was gut-wrenching. We had a $9 billion 
increase. We went from roughly $15 billion to $24 billion. And 
that was not a pleasant time to be there to make those 
decisions.
    What we did for that activity is that Claude and I meet 
often, we review schedules, we challenge the people that are 
monitoring the plants that have their plans.
    In terms of the recent decisions that we are taking on 
Pueblo and Bluegrass is, we are going to look at various stages 
being competitive. We want to look at incentives for the 
contractors with no compromise to safety. We want to look at 
right-sizing the plants, smaller footprints.
    So we are taking a lot of actions to hold cost and also to 
hold schedules.
    Secretary Bolton. Mr. Chairman, I agree with what Dr. Klein 
has just said.
    I think when we started this program, we obviously looked 
at things a bit differently in those days, both from a national 
standpoint, certainly from an environmental standpoint.
    A lot of rules, laws at all levels--local, state and 
federal--have changed in the interim, and I think for the right 
reasons: to protect us, to protect the public and protect the 
environment. Those were not envisioned at the time.
    CSEPP was not envisioned at the time when we started this, 
and that is to protect the local communities, and that is all 
added in terms of adding requirements and adding costs.
    We have been very, very tough on ourselves when it comes to 
safety. There is absolutely no reason to hurt anybody when we 
are trying to dispose of these types of weapons. And so we have 
been very, very cautious, and I would say not too cautious.
    And we have learned. Now that we have a number of sites up 
and running, now is the time to take those lessons learned--and 
we are, but those are across various plants--and see if there 
is a way we can get more efficient.
    It is interesting to note that once we get a plant up and 
running that it runs fairly well. And we see that at Aberdeen, 
we just started Pine Bluff, and they are moving along very, 
very well.
    You asked us to be brutally frank and honest. This is 
before my watch--and Dr. Klein will tell you that when I came 
here, I was not involved with this program. It was not under my 
purview at all, the chem demil.
    And quite frankly, I did not want it. There were just too 
many moving parts here, and rightfully so. But if you want to 
do something on a time line, you have to be able to control 
certain things, and we did not have that.
    Well, after about a year of brow-beating I was finally 
asked to take over six of these. And I noted that as I got into 
the programs, I said, ``Well, you have eight sites. Why am I 
only getting six?'' And then I was told about the Assembled 
Chemical Weapons Alternatives (ACWA) and what was going on 
there.
    And I knew from the get-go this is going to be problematic, 
because I have a burning desire to get things done as a 
package, because we can learn across that. I can put an 
organization together that can do the whole thing.
    I can certainly respond to the desires and wishes of 
Congress, both Houses, and get the job done. But if you 
separate it, it will take longer.
    And I think, as I mentioned in my last comment, I have done 
the best I can in supporting Mr. Wynne and Dale Klein, but I 
cannot tell you how many times I have bit my lip knowing that I 
would do things a little bit differently if we had the entire 
program.
    So separation of the programs has been, at least in my 
mind, problematic and has caused problems in cost and schedule 
delays.
    I mentioned in my opening comments that delays break down 
in three areas--Dr. Klein has already touched on those: 
technical, internal and external.
    The external I just talked on, in terms of rules, 
regulations, separation of the programs and projects.
    Internal basically boils down to how you organize to get 
the work done. We are improving that. We did that by setting up 
this Chemical Materials Agency (CMA) a couple of years ago.
    And the technical, the technical sometimes will surprise 
us. Take the mercury in the ton containers and so forth, we 
have gone out to the other sites and we are looking to see if 
that is going to be a problem there.
    But if you really want to get this down--I think we 
understand what the communities expect from us in terms of the 
environmental and wanting to do things safely. I think we know 
how to do that. We have demonstrated that.
    Now it is a matter of bringing these things together and 
getting on with the job and keeping the community well aware of 
what we are doing.
    Mr. Saxton. Thank you.
    Help me look ahead a little bit.
    Based on what we know, at the end of last year we had--
well, let me go back and say that when we started this program 
back in the early 1990's, when demil actually started, we had 
no or almost no demil plants--is that right?--very limited 
capability.
    And at the end of 2004, we had a plant operating Umatilla, 
Oregon; in Tooele, Utah; in Anniston, Alabama; and in Aberdeen, 
Maryland. So at the end of last year we had four plants up and 
running.
    Earlier this year Pine Bluff, Arkansas, came on line, and 
in a few months a plant at Newport, Indiana, will come on line. 
So we can essentially look at six out of eight plants in 
operation or soon to be in operation.
    What does this mean for the future? We have been able to 
demil roughly a third of the capacity--of the product that we 
have to demil over these many years that have passed, and now 
we have six plants up and running. What does this mean in terms 
of cost in the future and schedule in the future?
    Secretary Bolton. Well, obviously we are going to be 
reviewing this with Dr. Klein and Mr. Wynne here shortly, 
looking at our revised estimates and so forth.
    We are challenged by the Office of Secretary of Defense as 
we look at the Cost Analysis Improvement Group (CAIG) numbers. 
Their numbers are a bit higher than mine, so we are looking at 
all of that. We may all gravitate together here eventually.
    But what it means to me to have the six plants is that I 
can stabilize operations across those plants, get some 
experience under our belts how to do this, and then start 
driving the time down in terms of how long it is going to take 
to do the destruction at those plants.
    So having everything up and working, we can start to 
focusing on the day-to-day operations of all plants, sharing 
those lessons learned and then finding ways that we can 
actually bring that schedule back.
    Mr. Saxton. Can you predict how many tons you will be able 
to process a year with the six plants up?
    Secretary Bolton. Mike, do you want to take that?
    While Mike is getting up, I will tell you that we have an 
obligation to have 45 percent--go from the 36 where we are now 
to 45 in 2 years. But I think we can beat that.
    Mr. Parker. Yes, sir.
    We are in a process of rebaselining across the program as 
we speak and have that ready to come up by the end of May time 
frame.
    But I think if we look back on where we are at--this is the 
first time I think that we have had the operational history 
with Johnston Island, Tooele, seeing multiple plant startups at 
Anniston, Umatilla and now Pine Bluff, where we really have had 
the statistical base and the confidence in our operating 
history to do a good solid forecast.
    This rebaselining effort that we are going through now I 
think will produce something which we will be able to bring up 
through the Army chain to the Office of the Secretary of 
Defense and over to the Congress and basically to the American 
people with a very high confidence cost and schedule.
    From that we have also been able to identify, based on this 
operating data, many opportunities to accelerate the program--
as we call it, pull it back to the left in our schedule terms--
which will not only accelerate the program but also be able to 
address some of the cost issues which we find challenging.
    We do have that operational data now. We know where to go 
after, in an engineering context, to improve performance.
    As Dr. Klein touched on, the biggest thing on the plant 
side is that the plants have only been operating at about half 
of the designed efficiency that we had forecasted.
    The factors, while they are a consideration, involving 
environmental requirements--and totally new requirements, such 
as Chemical Stockpile Emergency Preparedness, the non-stockpile 
chemical demil program--add to the cost.
    But the biggest single factor is the operation of the 
plants.
    We have solid data, and I think we will be able to come 
back to you in the summer time frame and lay out a schedule 
which will answer your questions as to what we believe we can 
do with a very high confidence number.
    Mr. Saxton. Well, we look forward to seeing that 
information, and we appreciate your efforts in that regard.
    I am extremely interested in the disposal of the VX gas at 
the DuPont plant on the Delaware River. However, I think I have 
overstayed my welcome here in terms of using time. There are 
two other Members of Congress who are on this panel who are 
also interested in this subject. So here is what I suggest we 
do: We are going to Mr. Hefley, he is next, and then we will 
come back to Mr. Andrews and Mr. LoBiondo, who are----
    Mr. Andrews. Mr. Chairman, I would be willing to go after 
Mr. LoBiondo.
    Mr. Saxton. Okay, we will do it that way.
    We will go from Mr. Hefley, then, and then Mr. LoBiondo and 
Mr. Andrews.
    Mr. Hefley. Well, you know, I came in here today, I wanted 
to know what the heck is happening in Pueblo. And with the 
questions that have been asked by our chairman and ranking 
member and by your testimony, you have given us a little idea 
of that.
    But I am still very concerned about Pueblo. Is mustard gas 
not as important as some of these other things? It is fallen 
down on the priority list.
    The thing that concerns me is the fits and starts we have 
had there, that we think we have the thing going, we think a 
decision has been made--I was out there just a few months ago--
last fall, John, or some time? It is actually in John's 
district, and I refer to him for most of the questioning in 
this.
    But here the contractor was in a big, new temporary 
building, but it was big and new. And they took me outside, and 
they showed me where they had staked out for the new plant, and 
they had this system and they explained that in great detail to 
me, and it had all been agreed upon.
    And it seemed like no time after that I go home, and I read 
somewhere that this has been put on hold, that we are not going 
to do this after all.
    Now, is that because of the cost? Or is that because we are 
still looking at the idea of moving it to Utah to destroy it?
    I remember Jim Hansen, when he was here, that was always 
his dream, that we would move it to Utah and not have to build 
another plant.
    If that is what you are thinking about doing, tell us about 
that.
    But the thing I think that frustrates the community of 
Pueblo is that they get all excited that we are actually going 
to move forward, and then it is changed, everything changed and 
we are not moving forward at all.
    So any light you can shed on that, I would appreciate.
    Dr. Klein. Mr. Congressman, it has been a challenge. And 
when we were seeing--when we had certified the cost and 
schedule in roughly 2003 and it came back a lot higher than we 
had expected, we started looking at alternatives.
    We believe that at the end of this month we will have some 
alternatives that we will examine. I will be meeting with the 
Colorado delegation later this month. I met with individuals, 
the Colorado community group, in Denver a few weeks, and we try 
to keep them informed.
    The difficulty is if you ask us right now, do we have a 
decision exactly how we are going to proceed, we do not. We are 
trying to get the plant right-sized into a smaller footprint. 
We are trying to do it within reasonable cost and schedule.
    We have talked to the contractors involved. They believe 
they have some creative and innovative ways that they can do it 
within a reasonable time period and a reasonable cost. They 
just had not looked at all the options that we now are asking 
them to look at.
    So I definitely understand the frustration. We have it, 
too, so it is not just from Colorado's perspective.
    We do hope, though, within the end of this month to have 
some definitive numbers that we can look at. And as soon as we 
have it planned for, we will pass those on to you and to the 
community and certainly to Congressman Salazar as well since it 
is in his area.
    But we definitely are trying to look at both cost and 
schedule in terms of--and certainly safety.
    Mr. Hefley. Well, I would appreciate it if you would keep 
us in the circle. I do not like reading about it in the 
newspapers after I thought I had a thorough briefing. It makes 
me look a little silly when I say, ``Oh, no, I just talked to 
them and they said we were going to do it this way,'' and 
obviously that is not the case.
    Mr. Chairman, I have to go chair the Readiness Committee, 
and I apologize, because I would like to stay for the rest of 
this, but I have a very able colleague here that I am sure will 
not let you off easy. [Laughter.]
    Mr. Saxton. Thank you, Mr. Hefley.
    Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    I thank our distinguished panel for being here today.
    This is very informative and we are getting a lot of 
information, but as Chairman Saxton said, Mr. Saxton, Mr. 
Andrews and myself have many, many, many unanswered questions.
    And I know that the questions that are raised are leading 
us to say that you, Dr. Sinks, need additional information by 
the EPA before you can conclude what the ecological risks are, 
the long-term risks, and where we may go from this particular 
treatment at DuPont.
    I have also been made aware that DuPont made some recent 
upgrades to their disposal process, and I am told it involves 
some new techniques that some are saying would significantly 
remove a couple of additional agents from the wastewater, and 
that these results were shared with the CDC, but that these 
upgrades were not included in the current report.
    So my question is: Is the information concerning these 
upgrades being considered by the CDC? And if so, will a 
supplemental report be issued encompassing this information and 
any other additional information that the EPA requires?
    And what kind of time line are we talking about? Soon? 
Fast? Where do we go from here?
    Dr. Sinks. Thank you, Congressman. Let me try to address 
your questions.
    First, in terms of CDC's review of the data from DuPont and 
the Department of Defense on the phosphonate treatability, the 
revised treatability plan of DuPont.
    We became aware of this when it was announced in the media 
of November. I believe Congress became aware of it at that 
point of time.
    We just received a technical report itself to look at. It 
is about 400 pages long. We received it in March. We will 
proceed to go ahead and review that as quickly as we can with 
the people and resources we have available.
    We know this is an urgent issue, and we certainly want to 
address it in a timely manner and hope to have that done as 
quick as possible. But we have not had the time to review it 
yet in a scientifically rigorous manner. And we did not, for 
that reason, did not include it in the report that we released 
today.
    In terms of what the EPA needs, the EPA is not providing us 
data. They are asking for more information I believe from 
DuPont and the Department of Defense to fill in some of the 
questions they had in order to determine whether or not they 
felt that DuPont could dispose of this material into the 
Delaware River.
    Mr. LoBiondo. The entire program is enormously important to 
the nation, but I venture to say not a lot of people were 
paying attention other than those areas where the site is 
located.
    Congressmen Saxton and Andrews and I, we share this 
district to DuPont, and these are the very issues that will 
crank people up as quickly or as tightly as discussion about 
releasing to the Delaware River of an unknown, in their view.
    So there is going to be a lot of interest that is generated 
from this particular hearing, and I know we are anxious to get 
accurate information. But can you give us any idea of how much 
time we are talking about here?
    I know we want to do it accurately and we want to do it 
thoroughly, but I know what the first question I am going to 
get back home is: Are we talking about a month? Six months? Six 
years? What are we talking about here?
    Dr. Sinks. Well, I would hope we are talking in the terms 
of months rather than years, for sure.
    I do want to emphasize that this is a very small program in 
our center. It is approximately four individuals, full time, 
who are working on responding to requests from Congress as well 
as oversight with all of these facilities.
    Our individuals travel to these facilities, work alongside 
of Department of Defense and contractors to assure the safety 
in these plants and the safety for the public.
    So we have many different tasks in front of us to achieve. 
We understand the urgency of this matter. We certainly make it 
a very high priority, and we will proceed as quickly as we can.
    And as I said, I would hope it would be in the matter of 
months.
    I will say that one of the reasons why we took a little 
longer with the first report than we expected to take was our 
decision to go ahead and have our report externally peer 
reviewed and to ask the Department of Defense to give us 
technical advice on the report. After all, we had used 
information from the Department of Defense in developing the 
report. We wanted to assure that we were giving you the best 
science and the most credible report we could.
    It is a very challenging, complex issue. It is a very 
important issue. We wanted to make sure we are giving you the 
best report we could, and we hope to do that with the follow-
up.
    Mr. LoBiondo. Mr. Chairman, do I have time for one more 
question?
    Mr. Saxton. Yes, sir.
    Mr. LoBiondo. I would like to ask either Dr. Klein or 
Secretary Bolton: Can you comment or do you choose to comment 
on what alternatives to off-site disposal there may be, 
depending on what is concluded here?
    Secretary Bolton. Well, as noted earlier, there is a 
notification here to Congress about starting Newport after the 
30-day notification period is ended, and we will have storage 
on site there at Newport, and we will use that until we make a 
determination as to which way we are going to go with the 
hydrolysate.
    Mr. LoBiondo. So your idea is to wait on this information 
from this report, start the process in Indiana, and then make a 
decision based on the data that is revealed at that time.
    Secretary Bolton. Well, the data here, and EPA is also 
doing some work, sir.
    Mr. LoBiondo. Thank you very much.
    Yes?
    Dr. Klein. That material will be stored in robust 
containers on site in a safe, secure manner.
    And one thing I would like to comment on is that while we 
do not have the final disposition of the hydrolysate 
determined, it is a lot more safer to the citizens of Indiana 
and the Nation to have it transferred from the VX to the 
hydrolysate. So we think it is a right decision to start the 
process, then store on site until we do the final disposition.
    Mr. LoBiondo. So it is safe to assume they are happy about 
this?
    Secretary Bolton. Oh, yes, sir. We have been talking to the 
community there.
    Mr. LoBiondo. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Saxton. Thank you, Mr. LoBiondo.
    Mr. Andrews.
    Mr. Andrews. Thank you.
    I want to begin by thanking the witnesses for their 
preparation.
    I want to thank you, Mr. Chairman and Mr. LoBiondo, for the 
work that you have done on this issue of great concern to our 
region in procuring this CDC report and language in last year's 
authorization bill which made this report very meaningful. It 
is truly appreciated.
    I also want to say to Dr. Sinks: Your agency I think did a 
very, very good job. And I hope you would convey to the people 
who work with you that we appreciate their professionalism and 
thoroughness.
    And we appreciate you interrupting a family vacation, as I 
understand it, to be here to testify today. I think each one of 
us can relate to that risk.
    To Dr. Klein, Secretary Wakefield: I know that in these 
kinds of cases you are confronted with members who do not want 
things done in their district. It is a way of life around here.
    I have looked at this issue very carefully, and as far as I 
am concerned, this is more than just a matter of not wanting 
this process to take place in the Delaware River. I do not. And 
I think the report points out many of the reasons why.
    But I also understand we have a responsibility to work with 
you to solve a very important problem that the country has and 
to meet a very important obligation the country has.
    So I look at this and here is what I see: I see our fellow 
citizens in Indiana, who have a very serious problem, they are 
sitting next to a chemical weapons supply, and they very much 
want those chemical weapons neutralized or done away with in 
some way. And I think that should be our first priority, to 
meet the concerns of the people in Indiana.
    The second thing that I see is language in the CDC report 
which doubts whether the neutralization process that you are 
talking about doing will deal with half the supply at all.
    Page seven of Dr. Sinks testimony says, ``As a result of 
the chemical stabilizers added to the VX to maintain its 
potency, CDC is concerned about the effectiveness of the 
current neutralization technology to destroy the other 
approximately half of the stockpile.''
    So there is some real doubt as to whether the method you 
have chosen is going to even address half of the problem.
    By the way, I assume that the other point that is made is 
that they are calling on the--I will use an amateur term--but 
they are calling upon the ``concentration'' of the hydrolysate 
to be much lower than you had originally contemplated. Instead 
of 32 percent concentration in the fluid, they are now talking 
about 8 percent, which I think means you have a lot more stuff 
to handle, process, transport, dispose of than you thought you 
did, which leads to a concern about cost.
    I have asked repeatedly for the last year about the 
difference in cost between the neutralization method you are 
proposing here and the cost of supercritical water oxidation, 
which is one of the methods recommended above this method by 
the National Academy of Sciences. And I have yet to get a 
straight answer what that cost differential is. And I think 
that the fact that you have this new factor adds in.
    The third thing that I see is in the EPA's letter, which is 
an appendage of the CDC report, the EPA makes--this is Walter 
Mugden's letter--makes the following point: In addition to 
their concerns about the discharge of the hydrolysate, they say 
there are several additional issues that need to be addressed 
before treatment and discharge of this treated hydrolysate can 
occur, including whole effluent toxicity tests procedure, the 
potential for the presence of VX nerve agent.
    In other words, the EPA believes that the data you have 
assembled, the data that DuPont assembled, do not rule out the 
possibility that trace elements of the active VX nerve agent 
could still be in the hydrolysate.
    If you take these problems altogether and you take the 
comment you just made about the ability to start on half that 
stockpile and store the hydrolysate on site, I would just ask 
the question: Why don't you start doing that and then look for 
an on-site disposal method for the hydrolysate that could be 
more cost effective and efficient?
    I mean, why are we thinking about trucking stuff 800 miles 
across the country when we have all these questions?
    Dr. Klein. Let me start and answer some of your questions, 
and then I will defer to Mike Parker, who has a lot more of the 
technical details.
    The decision to use the neutralization technique in general 
was made quite some time ago. The National Academy of Sciences 
said that it was safe and well understood. So the chemistry----
    Mr. Andrews. But didn't they rank it eighth out of eight 
preferred methods, number eight of the eight methods they 
looked at?
    Dr. Klein. In terms of the neutralization or compared to 
incineration?
    Mr. Andrews. In terms of efficacy, did not they rank it 
number eight out of eight?
    Mr. Parker. Not as the primary treatment method, which is 
what we are talking about.
    Dr. Klein. I am not familiar with that ranking. It is my 
understanding that the neutralization technique is well 
understood and recommended as safe and well understood. So I am 
not sure what the ranking that you might be referring to.
    Let me just say that, again, the Army has spent a lot of 
time looking at how to best dispose of the hydrolysate. And Mr. 
Parker can tell you some of the decisions along that.
    I think we should keep in mind that the DuPont facility has 
a great track record. It has been operated safely, and it will 
continue to operate safely. And the amount of material, the 
hydrolysate, that goes in there is a very small part of their 
typical operation.
    However, we do want to make sure that the questions that 
individuals have, and certainly the regulatory bodies, that 
these questions are answered so that it is safely.
    I think Mr. Parker can go through and talk about some of 
the reasons we went with the eight percent and what the 
measurement will be to ensure that there is no live VX agent in 
that hydrolysate.
    Mr. Andrews. Well, with all respect, I have read some of 
the things that I think he is going to say.
    The question I would ask is: What does that do to the cost? 
If you have to go to the 8 percent instead of the 32, what does 
this do to the cost of this neutralization, then?
    Mr. Parker. Let me address that by answering your question 
first on the effect of the stabilizer.
    Since the point where CDC had to cut off data submission 
for the purposes of analyzing and producing the report, we had 
continued work with both stabilizers and a mixture of the two 
and have been able to confirm that the reaction at both 8-
weight percent and 16-weight percent is effective in 
neutralizing the VX, and the analytical procedures that are 
necessary to confirm that meet the EPA criteria.
    The 16-weight percent is what we look at as an optimal 
level to run the plant and also address some of the issues with 
shipping.
    As both efficiency and the flammability of the product, if 
it is more concentrated, then about 20 percent shifts to a 
different circumstance.
    The chronic effect that you cite that was noted by EPA, 
DuPont has been in contact with EPA to identify the additional 
aquatic species that EPA believes need to be looked at from a 
chronic standpoint. DuPont's estimate is something on the order 
of a month. They have identified those species and they think 
EPA is in agreement. They are going to proceed with those 
studies and then would provide the information through CDC to 
EPA.
    The last factor, on cost, the original concept was for on-
site treatment by supercritical water oxidation (SCWO). To 
revert back to that, a government-built and-operated 
supercritical water oxidation facility would add something in 
excess of $300 million and a couple more years to the operating 
cost.
    So it is a very expensive alternative to one that I think 
once we fully address all of the concerns in the report, which 
I believe we now have the data. The only outstanding element I 
believe at this point in time is the aquatic toxicity, which 
DuPont is in the process of addressing.
    We have both a procedure and a process on both ends, at 
Newport and at DuPont, Deepwater, which meets the mandate of 
maximum protection of the public.
    Mr. Andrews. The question that I asked you was: What 
difference in the cost of this neutralization procedure do we 
get by going from 32 percent down to 8? What difference does it 
make in your cost projections with respect to the 
neutralization process you have chosen?
    Mr. Parker. Sir, the 32 percent, which was the original 
concept, was based on an on-site treatment by supercritical 
water oxidation. The 32-weight percent product would have been 
diluted down to about somewhere between 5 and 10 percent before 
it was processed into SCWO.
    So we have a real apples and oranges. This is comparing an 
on-site treatment approach to an off-site treatment approach 
with a much different standard of protecting the public.
    Mr. Andrews. Which assumption were you making when you did 
your original cost projection? And has that changed as a result 
of this CDC report?
    Mr. Parker. The original cost projection, as I said, was 
based on a 32-weight percent neutralization and a significantly 
diluted product treated by supercritical water oxidation.
    Once we made the decision to change the fundamental 
approach--after 9/11 and the considerable concern about the 
threat that this material presents to the neat VX, or the pure 
VX presents to that community--and moved to a much more 
accelerated program, we have been consistently looking at the 
same fundamental approach.
    Mr. Andrews. I have more than exhausted my time, but I will 
just make this one point: Are you testifying that with the CDC 
saying that they doubt whether your process will deal with half 
the stockpile at all, that the cost is not going to go up above 
what you originally estimated?
    Mr. Parker. Sir, I do not believe that is what the CDC 
report said. The CDC report said----
    Mr. Andrews. Would you like to read it?
    Mr. Parker [continuing]. Before we proceed we need to 
resolve those issues. We have done that and we provided the 
data, and the data is in line with what is necessary to protect 
the workforce and the public.
    Mr. Andrews. The report says that CDC is concerned about 
the effectiveness of the current neutralization technology to 
destroy the other approximately half of the stockpile. That is 
what it says.
    And if they are right and you have to do something else 
other than what you contemplated with half of what is there, is 
it not going to make the cost go up?
    Mr. Parker. Sir, we provided----
    Secretary Bolton. Well, the cost would go up----
    Mr. Andrews. How much?
    Secretary Bolton. I do not know, because I do not believe 
the report and we do not----
    Mr. Andrews. You do not believe the report.
    Secretary Bolton. We do not believe the report because, as 
Mike pointed out, CDC only had a certain amount of data. They 
do not have the rest of the data that addressed the entire 
stockpile there. I think once they have the data, that 
statement will go away.
    Mr. Andrews. Well, Mr. Chairman, I am sure we would like to 
see the CDC continue to do its independent, professional work 
on this.
    I would simply say from my perspective, the first time I 
heard about this proposal, which is to discharge something into 
the drinking water of the people I represent, was in the 
newspaper, in a legal notice. Not from you, not from the other 
people involved.
    Now, I must say, with all due respect, that the credibility 
of those of you involved in managing this program took a bit of 
a hit in our area as a result of that, which is why we asked 
the CDC to become involved.
    Now, if you think that their work product is deficient in 
some way, I think you should put your points on the record. But 
we have a great deal of confidence in their work product.
    Mr. Parker. I do not believe he said----
    Secretary Bolton. As do I. And that is why we work very 
closely with the CDC----
    Mr. Andrews. But you just said you thought the report was 
wrong.
    Secretary Bolton. No, that is what you said, Congressman; 
that is not what I said.
    Mr. Andrews. What did you say?
    Secretary Bolton. I said----
    Mr. Andrews. You said you do not believe their report?
    Secretary Bolton. I said that they had incomplete data----
    Mr. Andrews. You said you do not believe their report.
    Secretary Bolton [continuing]. Which is what Mr. Parker 
said, that they cut-off date----
    Mr. Andrews. You said you do not believe their report. Is 
that not what we you said?
    Secretary Bolton. I do not believe I said that.
    Mr. Andrews. Well, I think the transcript will reflect that 
is what you said.
    Secretary Bolton. If that is what I said, then I apologize. 
However, the truth of the matter is, the CDC, like any 
organization, had a cut-off date. We continued doing our 
analysis, which I think when they see this data, these data, 
which say that this is a safe process for the entire stockpile, 
we are going to provide that data.
    And to get back to your point: None of us were here 50 
years ago when this country decided to build these munitions. 
Most of us were not here when this country decided to sign a 
piece of paper to the rest of the world saying we will get rid 
of this.
    It is true that we are talking about the state of Indiana 
and the people there. It is true I am trying to go ahead and 
make sure we reduce the immediate threat to them.
    But this nation has an obligation to get rid of this stuff. 
If it costs more money, it will cost more money and everybody 
in this country will have to pay for it. My job is to do it 
safely and to try to do that within the constraints that you 
give me. That is all I am trying to do.
    Mr. Andrews. One of your other obligations is to advise 
representatives of the people when you are going to make a 
decision that would affect those representatives, and you did 
not do that in this case. We were notified about this through 
the public media at the last minute. And it has created a 
serious credibility problem.
    Mr. Saxton. Is the gentleman finished?
    Mr. Andrews. Yes.
    Mr. Saxton. Thank you.
    We are going to go to Mr. Davis next, but before we do, 
just let me ask a couple of questions.
    Can you describe the nature of the substance that will be 
transferred to the DuPont site on the Delaware River for 
disposal, Dr. Klein--or one of you?
    Secretary Bolton. A hydrolysate is a caustic water 
substance, not unlike leach, and it has a 4 percent 
concentration caustic material. On our highways today we have 
similar materials that have a concentration up to 50 percent. 
We have been transporting to Deepwater similar materials from 
Aberdeen very safely--not one accident, no incident.
    Given the amount that is processed at DuPont, we represent 
something like a percent or two of their daily intake.
    Mr. Parker. As Secretary Bolton indicated, the predominant 
safety risk associated with the hydrolysate is the sorting 
hydroxide, the caustic content, which is around 4-weight 
percent. There is another small fraction of organic materials, 
which in addition which are present, those breakdown products 
which were noted by CDC and EPA as items that need to be 
addressed in the DuPont procedure before the material can be 
discharged into the river.
    Mr. Saxton. Dr. Sinks, can you add anything that would be 
enlightening for those of us who are not scientists?
    Dr. Sinks. Thank you.
    Let me just say, and to be perfectly clear, that our report 
was based on information provided to us by the Department of 
Defense and DuPont. We do not run our own scientific 
experiments on this material, nor could we. And we based our 
conclusions on the information that was provided to us.
    We have not excluded the possibility or the feasibility 
that the Department of Defense can treat I believe it is the 
dicychlohexylcarbodiimide (DCC)-stabilized VX. We just have not 
seen the data to demonstrate that they can.
    We have not excluded the possibility that they can treat at 
higher loads than eight percent, but we felt that the 
information provided to us was insufficient for us to draw the 
conclusion that they could.
    Mr. Saxton. Mr. Secretary, do you have that information? 
And are you going to provide it to CDC?
    Secretary Bolton. We will be providing that information.
    Mr. Saxton. Thank you.
    Mr. Secretary, either you or Mr. Parker mentioned that this 
is a relatively small percentage of the work--or would be a 
relatively small percentage of the work that goes on at DuPont.
    Can this material in any way be considered more harmful, 
less harmful, than other materials that are treated at DuPont?
    Mr. Parker. Sir, it is comparable to many materials that 
DuPont treats in the family of caustic-type waste products. 
DuPont treats materials which are substantially more toxic than 
inherent in this product and more difficult in the sense of 
their chemical processes and the controls that they have to 
mandate in order to meet their discharge permit and to have a 
product that is safe to discharge to the river.
    So this is well within DuPont's demonstrated capability of 
over 35 years of operating this facility.
    Mr. Saxton. Where does the material that DuPont treats 
originate, other than the proposed VX derivative?
    Mr. Parker. I believe in a broad sense, DuPont established 
the facility, as I understand it, initially to treat products 
from their own manufacturing operation. And given the capacity 
of the facility, they accept waste from New Jersey, 
Pennsylvania, New York, Delaware and other places across the 
United States that they have the capability of treating--12 
million to 15 million gallons a day of material that is treated 
in the facility.
    We would be asking DuPont to treat 5,000 to 10,000 gallons 
a day through the facility.
    They have, as I mentioned, a 35-year history of compliance, 
and I think being an excellent neighbor and a steward of the 
river.
    They do treat beyond the industrial waste, which is their 
profit center. They also treat for adjoining municipalities, 
their municipal waste, to take that capital burden off those 
communities.
    And they treat a large volume of storm water through the 
facility that would go into the river untreated if it was not 
for the availability of the facility.
    So they clean up that water that is contaminated from 
surface contamination and clean it up and actually improve 
significantly the discharge into the river.
    Mr. Saxton. You mentioned New Jersey, Pennsylvania, 
Delaware----
    Mr. Parker. New York.
    Mr. Saxton [continuing]. New York. Is there any way to 
describe the nature of the material that comes from those 
locations, that is treated at the DuPont plant?
    Mr. Parker. I think that is best answered by DuPont. They 
are permitted, under the Delaware River Basin Commission, to 
treat waste of a specific nature of which our hydrolysate falls 
well within the capabilities. But they are treating 
significantly more hazardous materials through the facility 
safely and have a long demonstrated capability.
    Mr. Saxton. You mentioned a minute ago that this is a 
permitted process. By whom is it permitted?
    Mr. Parker. There are two direct regulatory elements, as I 
understand, the state of New Jersey's Department of Natural 
Resources and Environmental----
    Mr. Saxton. Department of Environmental----
    Mr. Parker [continuing]. Commission oversees the operation 
of the facility and permits it.
    The discharge product into the river is regulated by the 
Delaware River Basin Commission, which is a consortium of state 
oversight elements from New York, Pennsylvania, Delaware, New 
Jersey and the Corps of Engineers who regulate not only DuPont 
but other facilities that discharge into the Delaware River.
    Mr. Saxton. Mr. LoBiondo has indicated he has a question.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Just along these lines that the Chairman is pursuing, am I 
to understand, then, that the state of New Jersey, through the 
Department of Environmental Protection, licensed this, and if 
they feel, for whatever reason, they are not satisfied, that 
the state of New Jersey has a major say in this?
    Mr. Parker. Yes, sir. DuPont's facility is currently going 
under a renewal, and that pre-draft is in its final stage of 
comments and will return, as I understand, to the two 
regulatory bodies--the state and the river commission.
    Until that is fully resolved and the permit is updated, 
DuPont will continue to operate under their existing permit. I 
believe the existing permit has a provision in it which would 
preclude the ability to treat and discharge this material in 
the river subject to full resolution of all of the concerns by 
the state regulatory body in New Jersey.
    Mr. LoBiondo. So the state of New Jersey, through the 
commission of DuPont (DP), really has to be satisfied before 
this can ultimately moved totally forward.
    Mr. Parker. Yes, sir.
    Mr. LoBiondo. And do you have any time line on their review 
process?
    Mr. Parker. It is basically tied to resolving the CDC 
comments and----
    Mr. LoBiondo. Okay.
    Thank you, Mr. Chairman.
    Mr. Saxton. We from New Jersey are particularly sensitive 
to these kinds of issues. As you know, we have a number of 
hazardous waste facilities, hazard waste dumps that are in the 
process of being cleaned up.
    And we have had, particularly in my district, in Toms 
River, we have had a high rate of childhood brain cancer, brain 
stem cancer, and it is suspected that there may be some 
chemical causes for that.
    So we thank you for bearing with us. We understand that you 
have a job to do, and we understand that it is a tough one. But 
at the same time, we represent a couple of million people among 
us, so we are going to continue to have these concerns until we 
resolve this issue.
    So thank you.
    Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    I would like to shift the discussion, if we could, from the 
Ohio Valley into the Bluegrass for a moment where Congressman 
Chandler and I are from, sharing the Bluegrass depot.
    As Congressman Andrews and Congressman Hefley I think very 
aptly pointed out--I could speak as a former project manager 
myself--we have the practicalities of executing the project, 
accomplishing management objectives, but at the same time is 
the perception of your customer, the public in this case.
    I am really concerned that, you know, we set expectations 
for our communities. All of us in here who have facilities in 
our areas get questions about this all the time. And certainly 
the credibility of not only of your agencies but also the 
perception of the government's reliability in general is the 
ability to meet these.
    And I feel like in some ways we have had some shifting 
plans and priorities--the direction where my questions are 
going to be going--in the fiscal year 2005 military 
construction budget. I think, for example, in the case of 
Bluegrass we had about $30 million that were released for 
neutral site improvements. In the 2006 fiscal year budget, we 
did not have any funds for construction at Bluegrass, or Pueblo 
for that matter, in the request.
    My first question is: What is the basis for that reduction 
in construction funding for the Assembled Chemical Weapons 
Alternatives program, dealing with, you know, what is a very 
serious issue in our area. It kind of came out as the red-
headed children, if you will, of eight facilities that were 
going to be addressed.
    Dr. Klein. What we are doing on the ACWA program is--
unfortunately, as new information comes, we have to evaluate 
that and make decisions the best that we can.
    The Under Secretary of Defense looked at some of the cost 
projections and schedules in December of 2004, and we believe 
that we can do better on schedule and on cost by looking at 
some alternatives.
    As you probably know, Mike Parker is dual-headed. He has 
the responsibility both for the CMA program and the ACWA 
program. So a lot of this work is done by some of the same Army 
individuals within Mr. Bolton's purview, the same professional 
staff.
    What we looked at in 2004 when we started seeing both 
schedule slippages and cost increases and we wanted to look at 
some alternatives to make sure that we are doing it not only 
safely but for a cost, schedule and performance balance, and 
that is what we are looking at right now.
    The unfortunate thing is I know what you would like to 
know, and I am sure that Representative Chandler and 
Representative Salazar both would like to have an answer right 
now on what we are going to do. And unfortunately, we just do 
not have that.
    We are getting information in, we will have the end of this 
month, we will evaluate that information and we will be making 
decisions. And as soon as we do, you will not read about it in 
the press; we will let you know personally.
    But right now we do not have information to really tell you 
exactly how we going to proceeding with those.
    Under Secretary Mike Wynne wanted to lay all of the options 
on the table. We want to look at all of those options. We want 
to provide that information to the Congress and certainly to 
the--that you have an interest in your communities--to make the 
best decision we can, to do this safely and balance cost, 
schedule and performance, but safety number one.
    Mr. Davis. Would all that distill down to you did not have 
enough money to execute it? Or was it a question over the 
technical means by which you were going to gain treaty 
compliance?
    Dr. Klein. There is 2004 and 2005 money that it is still 
held both for Pueblo and for Bluegrass. And so there are funds 
that are still available once we make the decision.
    We believe that for 2005 and 2006, once we make the 
decision, there are funds available to implement those 
decisions.
    Mr. Davis. One question on the delay, particularly for two 
facilities that have not had a lot of attention paid to them 
yet: What is an alternative? Is it reasonable to simply move 
from a--if it is a capital investment or infrastructure issue 
at Bluegrass, is it oversimplifying matters to say that these 
chemicals could be moved to a like facility with a similar 
destruction capability and have them neutralized there?
    Dr. Klein. We are certainly aware of a law that says we 
cannot move them. So if we do move materials, then we certainly 
will need to come back to Congress to make some modifications.
    In the case of Bluegrass, Bluegrass is a challenge because 
it has about 1.7 percent of the stockpile, but it has a lot of 
variety. And so what we want to look at is how can we best get 
rid of that small but complicated mixture in the best way.
    We do want to look at the cost of moving them to another 
facility as one of our decision-choices.
    So we wanted to look at all options.
    Mr. Davis. Well, I think if it is going to save the 
taxpayers a lot of money and it gets that stuff out of our 
region, that would be acceptable, based on the safety and 
security that could be provided.
    And if it is a matter of--without an infrastructure, I 
would encourage you to look at alternatives that could take an 
advantage of an economy of scale, and if it requires a 
regulatory or a legal amendment, then I am sure we would be 
glad to discuss that.
    But back to the original point: Not only is this a 
practical matter from a standpoint of science and engineering 
and effective budgeting, but I am very concerned about being 
able to clearly and consistently communicate one message from 
the Congress and from your agencies to our people who have a 
wide variety of perceptions about this.
    I do not want fear to reign. I would like it to be a true 
bipartisan win for your agencies, for the government, where we 
could set an expectation, clearly have it met on time, on 
budget and move from there.
    I yield back.
    Dr. Klein. One of the challenges that we have, if you look 
at just the cost alone and you look at the cost at the last two 
sites, Pueblo and Bluegrass, and you look at the cost that it 
takes per ton of that material, it is high, because you have a 
smaller volume of material, but in the case of Bluegrass, a lot 
of complicated devices.
    Mr. Davis. Thank you.
    Mr. Saxton. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    And, gentlemen, thank you for your testimony today.
    If I could, I would like to just follow up on the line of 
questioning that Mr. Andrews had raised with respect to the 
National Academy of Sciences report, which cited that your 
destruction technique that you have chosen ranks eighth out of 
eight. You said that you are not familiar with that ranking or 
that report, if I am understanding that correctly.
    So my question is: If that is true, then why are not you 
familiar with that report and that ranking?
    Second, then what criteria and techniques did you compare--
the kind of technique that you chose, what did you compare that 
against? And where does the technique that you have chosen, 
where does your technique fall in that ranking?
    Dr. Klein. I think Mr. Parker can probably answer the 
technical decisions.
    But in terms of the technique that was selected, we 
essentially have two fundamental choices: incineration or we 
can have a neutralization technique. I believe that both are 
safe, both have proven technologies.
    We do have more experience on the incineration plants in 
terms of their operational characteristics.
    The National Academy of Sciences has basically responded 
that both techniques are appropriate.
    And I am just not familiar with this particular ranking 
that you are referring to. Mike might have some information.
    Mr. Parker. I believe the report that was referenced 
addressed treating what we call secondary waste, and that is 
the hydrolysis product, versus the primary agent. The National 
Research Council (NRC) found the, as Dr. Klein summarized, the 
treatment either by incineration or neutralization to be 
equally effective for the purposes of destroying the primary 
agent.
    There are a variety of techniques available to treat the 
secondary waste. They were ranked--the bio treatment of the VX 
product is more difficult because the phosphonate does not bio-
treat as well. Therefore that is why DuPont chose to supplement 
their bio treatment with a chemical pre-treatment--actually two 
chemical pre-treatments--before doing the bio treatment.
    The end point effectiveness is still attained. It is met--
--
    Mr. Langevin. So where does that rank in terms of its 
effectiveness?
    Mr. Parker. I think if the NRC----
    Mr. Langevin. It sounds like to me that you just chose a 
technique and you went ahead and picked it because it works, 
but it may not necessarily be the best. I am trying to get to 
where does it fall in the ranking in comparison to other 
techniques?
    Mr. Parker. Well, I think it is a mistake to take the final 
treatment out of context of the broader issues that were 
address at the point of 9/11, where we had to take a step back 
and look at what we could do to accelerate the disposal of 
chemical weapons to get that threat out of communities. And one 
of those techniques was on-site primary treatment of agent 
followed by fully permitted treatment facilities in the 
commercial sector. And that is a considerably faster way of 
doing business than building on-site 100 percent capabilities.
    And in the context of ``best,'' I believe to the American 
public, of removing the risk, that that is best.
    Mr. Langevin. Thank you for that, but could you answer my 
question: Where does it rank?
    Mr. Parker. I do not think we compared it in that manner. 
And the NRC comparison----
    Mr. Langevin. So you looked at nothing else. You chose that 
technique, for whatever reason, and you compared it to nothing.
    Mr. Parker. I did not say that.
    We looked at, through our prime contractor, the Parsons 
company, a number of commercial-permitted facilities: 
incinerators, deep-well injection, bio treatment and additional 
chemical treatment. Those were looked at, and proposals were 
solicited from those industries, and we made a judgment that 
bio treatment was a viable technique--chemical plus bio 
treatment was a viable technique, it was cost effective, and it 
met the time lines we were looking for.
    Mr. Langevin. What I am hearing, then, is that you have no 
idea where this ranks. It is a technique that works, but it 
could the best or it could be the worst, you have no idea.
    Mr. Parker. I believe I said within what the commercial 
industry proposed in permitted facilities, this was, we found, 
to be the best-value technique.
    Mr. Langevin. Where does it rank in the National Academy of 
Sciences list, then?
    Mr. Parker. The particular procedure that is being applied 
at DuPont, the heavy chemical treatment followed by bio 
treatment, is something that evolved after the National Academy 
did their preliminary work. So I believe it would be a very 
poor fit for me to have to jam in to what the NRC did what the 
current state of DuPont's technology is.
    Mr. Langevin. Mr. Parker, your answer disturbs me. And I 
would ask that you respond to the committee, respond to my 
question in writing a more detailed answer as to where this 
falls in the ranking in comparison to techniques that you have 
looked at.
    And I encourage you also to review the National Academy of 
Sciences report so that you are more informed. Because that 
answer you gave me is unacceptable.
    Thank you, Mr. Chairman.
    Mr. Saxton. Thank you.
    Mr. Chandler.
    Mr. Chandler. Mr. Chairman, thank you very much for the 
invitation today. I appreciate that. I appreciate the 
opportunity to discuss this issue.
    Gentlemen, thank you for being here today.
    I must tell you, though, that I come here with some 
frustration. I know that many of you are frustrated as well. 
But I can assure you that the people that I represent in 
Central Kentucky are extremely frustrated.
    As you may know--well, I am sure you know, we have been 
wrangling over this issue at the Bluegrass Army Depot for in 
excess of 20 years. I suspect that no one on this panel has 
been dealing with this issue for all 20-plus years. And I have 
only been in Congress for one year, but I have been dealing 
with this issue off and on, or been familiar with it, as a 
citizen of Central Kentucky for all of that time.
    It is a very, very critical issue in our area.
    During those years, those 20-plus years, we have seen 
analysis after analysis done by the Department of the Army, 
often reviewed and concurred with by the National Research 
Council. These analyses have unequivocally determined that to 
continue to store chemical weapons in communities is indeed the 
highest-risk option. We know that.
    Now, specifically, Bluegrass in Kentucky has the most 
dangerous weapons and agents in the entire U.S. arsenal. That 
is my understanding.
    For example, the M55 GB rockets that are stored there have 
been identified as having the highest risk of any in the entire 
stockpile. Yet in the latest schedule provided to members on 
January 18, 2005, the two storage sites of Pueblo, Colorado, 
and Bluegrass in Kentucky are designed ``caretaker status'' 
between the years of 2005 and 2010, with no significant action 
in those years taken toward disposal.
    Additionally, according to an April 2002 Army study, the 
Bluegrass storage site will have the highest terrorism risk of 
all of the stockpiles beginning in 2007. Yet according to the 
most recent schedule, Bluegrass does not even begin the 
destruction of these weapons until 2017 or 2018.
    Now, Dr. Klein or Mr. Wakefield or whoever would like to 
tackle this question, how do I--or better yet, how do you all 
explain to my constituents that such established risks that 
exist, both of storage and potentially of terrorism, why those 
risks should take a backseat to other department funding 
priorities?
    Dr. Klein. Well, I think when we go through and do funding 
priorities, getting rid of our chemical weapons is very high on 
the list. I can tell you that Mr. Bolton and I spent a lot of 
time dealing with the safe destruction of the chemical weapons.
    What we will do in April of 2005, when we have alternatives 
before us, we hope to make some decisions on the path forward, 
and we would like to do that as expeditiously as we can. So we 
will not be waiting until the 2017 to make a decision. We will 
be working with our budget officials to put the proper funds to 
those, both Pueblo and Bluegrass plants, once we evaluate some 
alternatives later this month.
    You know, during 2005 we will be making some decisions to 
move both these facilities forward. So these are not sites that 
we are just going to sit on.
    I think some of the data you may be referring to is the 
artificial result of the way that DOD does their five-year 
budgeting----
    Mr. Chandler. So that is inaccurate? The time line that I 
have been given is inaccurate and you intend to actually bring 
it forward from that time line?
    Dr. Klein. My goal is to bring it forward from that time 
line.
    As I often tell people, some of our budgeting processes are 
accurate but incorrect.
    Mr. Chandler. Okay, I will think about that.
    Dr. Klein. It is part of the way we have to do our budgets 
within the fiscal constraints that we do.
    But I can assure that no one in the department, no one in 
the Army wants to sit on these weapons any longer than we have 
to.
    Mr. Chandler. Well, the Department of Defense, as you well 
know, has frozen several hundred million dollars, I think about 
$300 million, give or take, for these two projects: Pueblo and 
Bluegrass. I assume you are waiting to make a decision to 
utilize that money. I hope that is the case. There is no plan 
to divert that money to another project, is there?
    Dr. Klein. We will be making those plans--hopefully we will 
get those alternatives at the end of this month, and then we 
will be making plans and moving forward.
    Mr. Chandler. Will that money be diverted to other 
projects?
    Dr. Klein. The short answer is in the----
    Mr. Chandler. ``No'' I hope is the short answer. 
[Laughter.]
    Dr. Klein. The short answer is, I hope not.
    Mike Wynne made the decision, within the fiscal 
constraints, that we will concentrate on the operating plants, 
but that does mean that we are going to sit on these plants and 
not take action until 2017.
    Mr. Wakefield. Mr. Chandler, it is necessary when we 
develop the budget, as Dr. Klein points out, where we have to 
put the cost and a schedule together, this schedule represents 
what the current budget was. But as Dr. Klein points out, we 
bring these analyses forward, we seek the approval of 
leadership of the department, these schedules will change 
commensurate with budgets in their future.
    Mr. Chandler. Change in a favorable manner toward getting 
this done more quickly, you believe?
    Mr. Wakefield. Indeed, as Dr. Klein had indicated, yes.
    Mr. Chandler. I would like to just for a second pursue this 
issue of transportation.
    I think I understood, in response to Congressman Davis's 
questions, that transportation is an option that you are in 
fact considering? Is that true?
    Dr. Klein. We want to look at what the cost and schedule 
would be for transportation. Whether we implement----
    Mr. Chandler. So the answer is yes, you are considering 
that or you would not look at it, I would assume.
    Dr. Klein. We are looking at all options, and then once we 
get the information, we will evaluate that and make a 
recommendation.
    Mr. Chandler. You would not be looking at an option that 
you are not considering, though, I would assume.
    Dr. Klein. That is correct.
    Mr. Chandler. So the answer is yes, you are considering 
transporting these materials if your study determines that that 
is the preferable option?
    Dr. Klein. If the results indicate that that is 
preferable--and preferable would mean cost, schedule, safety 
and all of those activities--we will obviously be involved in a 
lot of discussions, and hopefully that would be implemented.
    Mr. Chandler. Well, I can assure you--that is a very mild 
way of putting it, ``a lot of discussions''--the agitation will 
be something that--well, you will be surprised I think at the 
amount of agitation that you will see.
    Dr. Klein. My background is in the nuclear field and the 
transportation of spent nuclear fuel----
    Mr. Chandler. Well, you will probably see a nuclear 
response from the citizens of our district if that effort is 
attempted. [Laughter.]
    I just want you to understand that we believe--myself, as 
the representative of the people of Central Kentucky, and 
contrary I think actually to what Mr. Davis said, if I 
understood him correctly--transportation is not an option to 
us, just very simply.
    Dr. Klein. Got it.
    Mr. Chandler. Thank you, sir.
    Mr. Saxton. Mr. Salazar, please.
    Mr. Salazar. Thank you, Mr. Chairman. I appreciate you 
inviting us to your committee today.
    I really appreciate Dr. Klein and Mr. Wakefield being out 
in Pueblo to visit with the folks at Pueblo.
    I think our Congressman Hefley put it quite clearly, that 
it is important for us that represent the public to be able 
know what is coming down the pike before things are made 
public.
    And I reiterate what Congressman Chandler stated about the 
possibility of moving these weapons across state lines. I think 
in Colorado, as you know, it is very difficult to get the 
environmental community and local communities involved to be 
able to come together and agree on a process.
    I am hearing you say that now other alternatives, such as 
incineration, might even be considered in Pueblo. Is that 
correct?
    Dr. Klein. No. I do not believe of the options that we are 
looking at includes incineration in Pueblo.
    Mr. Salazar. But the possibility of transporting these 
weapons across state lines to another facility. Correct?
    Dr. Klein. We will look at the cost to do that, yes.
    Mr. Salazar. Just for the record I would like to clarify: I 
believe that what you stated was that the cost is now being 
projected at $2.6 billion for the facility in Pueblo. This was 
based on a project that was actually supposed to be an 
accelerated type of project which had three line facilities, I 
believe.
    Would you be willing to say right now that if the cost 
would come down to $1.6 billion for a down-scaled project that 
you would okay that?
    Dr. Klein. The probability that if--and in fact we have 
talked to some of the contractors--that if the cost comes down 
to $1.6 billion, which was the cost we certified to Congress, I 
believe that that would be the favored alternative.
    Mr. Salazar. Okay.
    Mr. Klein, also I think I hear what everyone here is saying 
is that it is important for all of us Congressmen to know ahead 
of time what is coming down the pike. You are telling us that 
you will be making a decision basically in April, the latter 
part of April, I believe?
    Dr. Klein. We should be getting the information the end of 
April and make the decision as soon as we can. And we will make 
sure we notify you so you do not read it in the paper.
    Mr. Salazar. Thank you.
    Mr. Wakefield. Mr. Salazar, if I may interject here, one of 
the things that we have instituted with your staff and others 
is, we do indeed have monthly meetings with all of your staff 
to keep them informed. We bring to them the information that is 
forthcoming out of the department early on. We do this each and 
every month. We package that, provide them a briefing.
    I would tell you the recent decision of Mr. Wynne was 
briefed to them just the other day, prior to its even release 
in a public manner, so that they had a heads-up information on 
this.
    So we are making every effort to try to keep you as well 
informed as we possibly can.
    Mr. Salazar. Well, I do appreciate that.
    And I just have one final comment.
    I think that what I am hearing from most of you is that 
once you initiate a project, like the project that you did in 
Aberdeen, you found out that you were actually more efficient 
than what you thought, and you were able to reach the time 
lines ahead of schedule, or actually destructed the weapons 
ahead of schedule. Correct?
    Dr. Klein. No, it was a year later than we expected.
    Mr. Salazar. Oh, it was a year later?
    Dr. Klein. Yes.
    Mr. Salazar. Okay, thank you very much.
    Mr. Saxton. Well, I am sure you will be happy to know, or 
unhappy--you will be disappointed that we do not have more 
members here. [Laughter.]
    Thank you for being here. We appreciate it very much.
    We have identified a number of unanswered questions, in 
particular regarding Newport, Pueblo and Bluegrass, issues that 
have to do with processes, time, costs, et cetera. So we will 
be sending you some additional questions, if that is 
permissible, for the record.
    And we look forward to answers to those questions, as this 
is an important process from many perspectives. It is important 
to the country, it is important to the communities in which 
your facilities are located or where your activities take 
place, and of course it is important from a budgetary point of 
view.
    So we thank you for your cooperation and for being here 
today. And we look forward to working with you as we move 
forward together.
    Thank you.
    [Whereupon, at 3:06 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 6, 2005

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 6, 2005

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3788.001
    
    [GRAPHIC] [TIFF OMITTED] T3788.002
    
    [GRAPHIC] [TIFF OMITTED] T3788.003
    
    [GRAPHIC] [TIFF OMITTED] T3788.004
    
    [GRAPHIC] [TIFF OMITTED] T3788.005
    
    [GRAPHIC] [TIFF OMITTED] T3788.006
    
    [GRAPHIC] [TIFF OMITTED] T3788.007
    
    [GRAPHIC] [TIFF OMITTED] T3788.008
    
    [GRAPHIC] [TIFF OMITTED] T3788.009
    
    [GRAPHIC] [TIFF OMITTED] T3788.010
    
    [GRAPHIC] [TIFF OMITTED] T3788.011
    
    [GRAPHIC] [TIFF OMITTED] T3788.012
    
    [GRAPHIC] [TIFF OMITTED] T3788.013
    
    [GRAPHIC] [TIFF OMITTED] T3788.014
    
    [GRAPHIC] [TIFF OMITTED] T3788.015
    
    [GRAPHIC] [TIFF OMITTED] T3788.016
    
    [GRAPHIC] [TIFF OMITTED] T3788.017
    
    [GRAPHIC] [TIFF OMITTED] T3788.018
    
    [GRAPHIC] [TIFF OMITTED] T3788.019
    
    [GRAPHIC] [TIFF OMITTED] T3788.020
    
    [GRAPHIC] [TIFF OMITTED] T3788.021
    
    [GRAPHIC] [TIFF OMITTED] T3788.022
    
    [GRAPHIC] [TIFF OMITTED] T3788.023
    
    [GRAPHIC] [TIFF OMITTED] T3788.024
    
    [GRAPHIC] [TIFF OMITTED] T3788.025
    
    [GRAPHIC] [TIFF OMITTED] T3788.026
    
    [GRAPHIC] [TIFF OMITTED] T3788.027
    
    [GRAPHIC] [TIFF OMITTED] T3788.028
    
    [GRAPHIC] [TIFF OMITTED] T3788.029
    
    [GRAPHIC] [TIFF OMITTED] T3788.030
    
    [GRAPHIC] [TIFF OMITTED] T3788.031
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 6, 2005

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3788.032
    
    [GRAPHIC] [TIFF OMITTED] T3788.033
    
    [GRAPHIC] [TIFF OMITTED] T3788.034
    
    [GRAPHIC] [TIFF OMITTED] T3788.035
    
    [GRAPHIC] [TIFF OMITTED] T3788.036
    
    [GRAPHIC] [TIFF OMITTED] T3788.037
    
    [GRAPHIC] [TIFF OMITTED] T3788.038
    
    [GRAPHIC] [TIFF OMITTED] T3788.039
    
    [GRAPHIC] [TIFF OMITTED] T3788.040
    
    [GRAPHIC] [TIFF OMITTED] T3788.041
    
    [GRAPHIC] [TIFF OMITTED] T3788.042
    
    [GRAPHIC] [TIFF OMITTED] T3788.043
    
    [GRAPHIC] [TIFF OMITTED] T3788.044
    
    [GRAPHIC] [TIFF OMITTED] T3788.045
    
    [GRAPHIC] [TIFF OMITTED] T3788.046
    
    [GRAPHIC] [TIFF OMITTED] T3788.047
    
    [GRAPHIC] [TIFF OMITTED] T3788.048
    
    [GRAPHIC] [TIFF OMITTED] T3788.049
    
    [GRAPHIC] [TIFF OMITTED] T3788.050
    
    [GRAPHIC] [TIFF OMITTED] T3788.051
    
    [GRAPHIC] [TIFF OMITTED] T3788.052
    
    [GRAPHIC] [TIFF OMITTED] T3788.053
    
    [GRAPHIC] [TIFF OMITTED] T3788.054
    
    [GRAPHIC] [TIFF OMITTED] T3788.055
    
    [GRAPHIC] [TIFF OMITTED] T3788.056
    
    [GRAPHIC] [TIFF OMITTED] T3788.057
    
    [GRAPHIC] [TIFF OMITTED] T3788.058
    
    [GRAPHIC] [TIFF OMITTED] T3788.059
    
    [GRAPHIC] [TIFF OMITTED] T3788.060
    
    [GRAPHIC] [TIFF OMITTED] T3788.061
    
    [GRAPHIC] [TIFF OMITTED] T3788.062
    
    [GRAPHIC] [TIFF OMITTED] T3788.063
    
    [GRAPHIC] [TIFF OMITTED] T3788.064
    
    [GRAPHIC] [TIFF OMITTED] T3788.065
    
    [GRAPHIC] [TIFF OMITTED] T3788.066
    
    [GRAPHIC] [TIFF OMITTED] T3788.067
    
    [GRAPHIC] [TIFF OMITTED] T3788.068
    
    [GRAPHIC] [TIFF OMITTED] T3788.069
    
    [GRAPHIC] [TIFF OMITTED] T3788.070
    
    [GRAPHIC] [TIFF OMITTED] T3788.071
    
    [GRAPHIC] [TIFF OMITTED] T3788.072
    
    [GRAPHIC] [TIFF OMITTED] T3788.073
    
    [GRAPHIC] [TIFF OMITTED] T3788.074
    
    [GRAPHIC] [TIFF OMITTED] T3788.075
    
    [GRAPHIC] [TIFF OMITTED] T3788.076
    
    [GRAPHIC] [TIFF OMITTED] T3788.077
    
    [GRAPHIC] [TIFF OMITTED] T3788.078
    
    [GRAPHIC] [TIFF OMITTED] T3788.079
    
    [GRAPHIC] [TIFF OMITTED] T3788.080
    
    [GRAPHIC] [TIFF OMITTED] T3788.081
    
    [GRAPHIC] [TIFF OMITTED] T3788.082
    
    [GRAPHIC] [TIFF OMITTED] T3788.083
    
    [GRAPHIC] [TIFF OMITTED] T3788.084
    
    [GRAPHIC] [TIFF OMITTED] T3788.085
    
    [GRAPHIC] [TIFF OMITTED] T3788.086
    
    [GRAPHIC] [TIFF OMITTED] T3788.087
    
    [GRAPHIC] [TIFF OMITTED] T3788.088
    
    [GRAPHIC] [TIFF OMITTED] T3788.089
    
    [GRAPHIC] [TIFF OMITTED] T3788.090
    
    [GRAPHIC] [TIFF OMITTED] T3788.091
    
    [GRAPHIC] [TIFF OMITTED] T3788.092
    
    [GRAPHIC] [TIFF OMITTED] T3788.093
    
    [GRAPHIC] [TIFF OMITTED] T3788.094
    
    [GRAPHIC] [TIFF OMITTED] T3788.095
    
    [GRAPHIC] [TIFF OMITTED] T3788.096
    
    [GRAPHIC] [TIFF OMITTED] T3788.097
    
    [GRAPHIC] [TIFF OMITTED] T3788.098
    
    [GRAPHIC] [TIFF OMITTED] T3788.099
    
    [GRAPHIC] [TIFF OMITTED] T3788.100
    
    [GRAPHIC] [TIFF OMITTED] T3788.101
    
    [GRAPHIC] [TIFF OMITTED] T3788.102
    
    [GRAPHIC] [TIFF OMITTED] T3788.103
    
    [GRAPHIC] [TIFF OMITTED] T3788.104
    
    [GRAPHIC] [TIFF OMITTED] T3788.105
    
    [GRAPHIC] [TIFF OMITTED] T3788.106
    
    [GRAPHIC] [TIFF OMITTED] T3788.107
    
    [GRAPHIC] [TIFF OMITTED] T3788.108
    
    [GRAPHIC] [TIFF OMITTED] T3788.109
    
    [GRAPHIC] [TIFF OMITTED] T3788.110
    
    [GRAPHIC] [TIFF OMITTED] T3788.111
    
    [GRAPHIC] [TIFF OMITTED] T3788.112
    
    [GRAPHIC] [TIFF OMITTED] T3788.113
    
    [GRAPHIC] [TIFF OMITTED] T3788.114
    
    [GRAPHIC] [TIFF OMITTED] T3788.115
    
    [GRAPHIC] [TIFF OMITTED] T3788.116
    
    [GRAPHIC] [TIFF OMITTED] T3788.117
    
                                  <all>

</pre></body></html>
